<html>
<title> - FROM LANGUAGES TO HOMELANDS: ADVANCING TRIBAL SELF-GOVERNANCE AND CULTURAL SOVEREIGNTY FOR FUTURE GENERATIONS</title>
<body><pre>[Senate Hearing 116-410]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-410

   FROM LANGUAGES TO HOMELANDS: ADVANCING TRIBAL SELF	GOVERNANCE AND 
              CULTURAL SOVEREIGNTY FOR FUTURE GENERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                            DECEMBER 9, 2020
                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
         
         
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
43-336 PDF                 WASHINGTON : 2021  




                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 9, 2020.................................     1
Statement of Senator Cantwell....................................    24
Statement of Senator Cortez Masto................................    31
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     4
Statement of Senator Smith.......................................    33
Statement of Senator Tester......................................    35
Statement of Senator Udall.......................................     2

                               Witnesses

Echohawk, John E., Executive Director, Native American Rights 
  Fund...........................................................    21
    Prepared statement...........................................    23
Francis, Hon. Kirk, President, United South and Eastern Tribes 
  Sovereignty Protection Fund....................................    13
    Prepared statement...........................................    15
Vallo, Hon. Brian D., Governor, Pueblo of Acoma..................     5
    Prepared statement...........................................     7

                                Appendix

Letters submitted for the record 


Response to written questions submitted by Hon. Catherine Cortez 
  Masto to:
    Hon. Kirk Francis............................................    49
    Hon. Brian D. Vallo..........................................    54
Response to written questions submitted by Hon. Tom Udall to:
    Hon. Kirk Francis............................................    56
    Hon. Brian D. Vallo..........................................    50
Schatz, Hon. Brian, U.S. Senator from Hawaii, prepared statement.    41
State of Hawai'i, Office of Hawaiian Affairs (OHA), prepared 
  statement......................................................    41

 
                     FROM LANGUAGES TO HOMELANDS: 
     ADVANCING TRIBAL SELF-GOVERNANCE AND CULTURAL SOVEREIGNTY FOR 
                           FUTURE GENERATIONS

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2020


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:43 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I call this oversight hearing 
to order.
    As we close out the 116th Congress, we will hear from 
leaders of the tribes and tribal organizations on what Congress 
can do to further strengthen the foundational principles of 
tribal sovereignty and self-governance during today's hearing, 
entitled From Languages to Homelands: Advancing Tribal Self-
Governance and Cultural Sovereignty for Future Generations.
    Before we get to opening statements and the witnesses' 
testimony, I would like to take a moment to recognize Vice 
Chairman Udall, who is retiring at the end of this Congress. 
This being our last Indian Affairs Committee hearing of the 
year, I want to thank him for his dedication and steadfast 
leadership to this Committee. This Committee has a long history 
of working in a bipartisan manner, and this spirit of 
bipartisanship continues today.
    For example, in the 115th and 116th Congresses, we have 
passed 80 bills out of our Committee. Over half of those have 
received co-sponsorship by both Democrats and Republicans. 
Since 2017, Senator Udall and I have served as Vice Chairman 
and Chairman of this Committee. Senator Udall is a large reason 
why this bipartisan tradition has continued. I think we have 
about a dozen bills we are trying to hotline right now, too, so 
the work continues.
    I greatly appreciate and am proud to have worked with Vice 
Chairman Udall on legislation that improves the quality of life 
in Indian Country. This includes S. 211, the SURVIVE Act, which 
secures resources for Indian victims of violent crimes, as well 
as the recently signed into law Progress for Indian Tribes Act, 
which strengthens and reforms self-governance and self-
determination programs. These are in addition to the many bills 
that Senator Udall has helped shepherd to the President over 
the years, including the Esther Martinez Language for 
Reauthorization Act, and the Native American Business and 
Computers Act as examples.
    I want to thank Vice Chairman Udall for his friendship and 
his service to our Country, the great State of New Mexico, and 
to Indian Country. I want to wish you, Vice Chairman Udall, and 
Jill, very best wishes going forward in what I know will be 
very productive and very good future endeavors.
    I also want to take a moment to thank our respective staffs 
on the Committee for a job well done. From my staff, John, 
Jacqueline, James, Chase, Brandon, Holmes, Caitlin, Christy, 
and Elizabeth, and most of all, of course, to Mike, our staff 
director, who is exceptional. I acknowledge all of you for the 
professional work you do, and I thank you.
    I also thank, in addition, Jim and Avis and Zach and Dawson 
and also Jack. And also, I want to say a thank you to Mel, who 
has been the Committee hearing reporter this past Congress. 
Thank you, sir.
    And with that, I will turn to Vice Chairman Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Mr. Chairman, thank you so much, and thank 
you for the very kind words and the kind words Senator 
Murkowski and others have said here today.
    For the past 43 years, the Senate has relied on this 
Committee to lead its work advancing Federal Indian policy and 
living up to our constitutionally enshrined trust and treaty 
responsibilities. I am honored to have been a member of this 
Committee for the past 12 years, over one-quarter of its 
history, and have led this Committee, alongside you, Mr. 
Chairman, for the last four years.
    During my tenure with the Committee, we have joined 
together with tribal leaders to advance Indian Country's 
priorities. Sixty of the Committee's bills have been enacted in 
that time, and we have seen countless other committee-led 
policies included in broader Senate packages.
    Mr. Chairman, I take no small amount of pride in noting 
that the Committee's productivity under our leadership has been 
remarkable. Together we have convened over 50 hearings and 
enacted 21 Indian Affairs bills. The spirit of bipartisanship 
is alive and well in the Indian Affairs Committee. I expect 
that tradition to continue long after we depart these halls.
    Indeed, it has been a historic decade. I am proud that we 
have helped expand self-determination programs to new 
departments, permanently reauthorize the Indian Health Care 
Improvement Act, improve access to Federal Native language 
programs, restore tribal jurisdiction over domestic violence 
offenses, secure inclusion of Indian Country priorities in the 
Farm Bill, that was a big first, support small businesses and 
entrepreneurs in Native communities, and ensure tribes were not 
left behind when Congress negotiated COVID-19 relief.
    I have fought alongside tribal leaders to defend tribal 
sovereignty, sacred sites, and the Indian Child Welfare Act. 
Our work in Indian Affairs is proof positive that 
bipartisanship can still find its footing here in Washington, 
that progress and principles need not to be sacrificed for 
political gamesmanship or political expediency.
    I have often said that I came to Washington to take the 
tough votes, to tackle the difficult issues. When it comes to 
Indian affairs, there have been many times when it would have 
been easier, more expedient, more popular, to give in and say 
sovereignty sometimes, self-governance when it is convenient, 
or consultation if there is time. But public service isn't 
about doing what is easy. I came here to fight for New Mexico, 
to fight for Indian Country, and to legislate from a place of 
principle.
    Today's hearing is an opportunity to reflect on these 
lessons, to examine our shared legacy and discuss what still 
remains to be done. Through my own time in the Senate, and my 
own time in the Senate is drawing to a close, my commitment to 
the core principles that have guided my work on Indian Affairs 
throughout my public service careers remain unwavering.
    Soon we will hear from Governor Vallo, President Francis, 
and Mr. Echohawk. I hope everyone will consider their testimony 
with great care and attention. As tribal leaders and advocates 
in their field, I am heartened to have them as witnesses today.
    Also hopefully we will ask ourselves how we can act on 
their advice better, respect tribal sovereignty, promote tribal 
self-determination and ensure government to government 
consultation is meaningful. These principles must be the 
bedrock for Federal actions, because if we truly want to 
advance sound policies for future generations, we must all 
commit to a principled approach to developing Indian affairs 
law and policy.
    Thank you, Mr. Chairman, for working with me to convene 
this important hearing. I can think of no better topic to close 
out our work for the 116th Congress.
    With your indulgence, I would like to just add one more 
thing before I wrap up my statement. Success in Congress is 
built on collaboration, members working together with other 
members, committees working with other committees. And of 
course, committees working with their staff. The remarkable 
success we have enjoyed in Indian Affairs in the last four 
years is the result of the work of each Senator on this dais. I 
am truly humbled to have called you all colleagues and friends.
    It is also due in no small part to our excellent staff, 
without whom we would surely be lost. So I will close by saying 
thank you to my own Indian Affairs Committee staff, as you have 
done with yours, Mr. Chairman, Jennifer Romero, Anthony 
Seville, Kim Moxley, Joss Mayhan, Connie Socideharo, Anu 
Tupper. Your tireless work on behalf of the Committee and 
Indian Country has been of the highest caliber.
    Thank you. I yield, Mr. Chairman, to you.
    The Chairman. Thank you, Vice Chairman Udall. With that, I 
would turn to other members who would like to make an opening 
statement. Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and Vice 
Chairman Udall. I appreciate the fact that we have scheduled, 
as you point out, Senator Udall, this very important hearing as 
it relates to advancing tribal self-governance, cultural 
sovereignty, future generations. It is pretty forward-leaning, 
and I think, as you say, it is a very fitting way to end a very 
productive Committee schedule here within Indian Affairs.
    I am not going to be able to stay for the balance of the 
hearing and hear from these very important witnesses. I am 
working on trying to put together a COVID emergency relief 
package, and part of my focus within that is to ensure that our 
indigenous peoples, that the tribes are represented, that we 
have tribal set-asides, whether it is making sure than when 
States and locals receive money that our tribes also receive 
that Federal support, whether it is tribal set-aside for 
broadband or for the nutrition programs, making sure that we 
are always thinking about our first peoples and putting them 
first.
    But before I leave, I want to take just a couple of minutes 
and recognize Vice Chairman Udall, my friend, not only my 
friend here on the Indian Affairs Committee, but my partner for 
many years now on Interior Appropriations, where we have 
oversight of IHS, of the IA and so many of these very, very 
important accounts. I have had an opportunity to be here on the 
Committee now for my full tenure, 18 years on the Indian 
Affairs Committee.
    I agree with you, Senator Udall, I think that this is a 
place where we can come together, work through some different 
issues, because we all come from different places. And the 
needs of the Native people in New Mexico may be different than 
in Alaska or in the Dakotas. But we know the needs are there, 
and they are very real. We have worked together to solve that.
    So to call this place, this Committee, a refuge of 
bipartisanship I think is a tribute to the Committee, to the 
staffs, and to the effort to try to do right for all the right 
reasons.
    I think about the things that we have partnered on just in 
this 116th Congress. We have had some pretty critical pieces of 
legislation come together. Some have become law, some we are 
going to need to keep working on. But when I think about what 
we did to build on the tribal jurisdiction provision within the 
2013 VAWA Act, the Native Youth and Officer Protection Act, 
addressing violence against Native women, children and tribal 
law enforcement.
    We have also your BADGES legislation addressing public 
safety needs in Indian Country. What we have done to, what we 
as a full committee have done, to address the unconscionable 
crisis as it relates to murdered and missing indigenous women 
and girls, what we have done to get the attention of the 
agencies to improve data collection, understanding what it is 
that we know and understanding what it is that we don't know. 
What we are doing to improve public safety resources and 
clarifying tribal jurisdiction.
    You mentioned the sovereignty issue. I was very pleased to 
be able to work with you and our team as we filed that 
bipartisan, bicameral amicus to make the case for the 
constitutionality of the Indian Child Welfare Act, and 
Congress' authority, the trust responsibility to legislative 
for the benefit of Indian tribes. I think it was probably one 
of the most significant pieces of Indian legislation that 
Congress has enacted. And to really maintain the integrity of 
Native culture and family. So working together with you on that 
was very, very important.
    On the culture side, the work that we have been able to do 
when it comes to languages has been so, so, so very important 
and appreciated. You mentioned the Esther Martinez Native 
Languages Act. But we have also introduced the Durbin Feeling 
Native Languages Act just recently. So we had Esther Martinez 
signed into law last year, and know that I am going to continue 
our joint effort as we work to support Native languages.
    I will mention the work that we have done on Interior 
Appropriations, and the partnering that we have done. We have 
some pretty strong staff, Rebecca and Emmy and the rest of the 
teams there that have really worked to ensure that the support 
for Indian Health Services and health care for Native peoples 
is good, is solid, is robust. We know we have to do more.
    But what we were able to do with advanced appropriations 
for IHS, that is significant, significant stuff. That is legacy 
stuff. And again, I think in the midst of this pandemic, the 
impact that we have seen in Indian Country with 
disproportionate health and economic impacts, everything that 
we can be doing to work in a bipartisan basis for the 
betterment of Native peoples and the fiscal and health needs 
are things that, whether it is New Mexico, whether it is 
Alaska, whether it is North Dakota, we are doing this together.
    I want to thank you for your leadership and your care and 
your heart, particularly for American Indians, Alaska Natives, 
Native Hawaiians. I have seen you engage in so many other 
different issues and areas. But you can tell that your heart is 
with the people. So I thank you for that.
    We will miss you. I will miss having you and Jill here. But 
know that your contributions are appreciated and will be long-
lasting.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    We will turn to Senator Smith virtually.
    [Pause.]
    The Chairman. All right, then we will proceed until she 
returns.
    Now we will hear from our witnesses, starting with the 
Honorable Brian Vallo, Governor, Pueblo of Acoma; the Honorable 
Kirk Francis, President, United South and Eastern Tribes 
Sovereignty Protection Fund, Nashville; and Mr. John Echohawk, 
Executive Director, Native American Rights Fund, Boulder, 
Colorado. All of them will be testifying virtually.
    We will begin with Governor Vallo.

  STATEMENT OF HON. BRIAN D. VALLO, GOVERNOR, PUEBLO OF ACOMA

    Mr. Vallo. [Greeting in Native tongue.] Good afternoon, 
members of the Committee, Chairman, Vice Chair Udall. Thank you 
for this opportunity.
    I am Brian Vallo. I am the Governor of the Pueblo of Acoma 
of New Mexico. I thank the Committee for this opportunity to 
testify on Advancing Tribal Self-Governance and Cultural 
Sovereignty for Future Generations.
    In discussing tribal cultural issues and the government-to-
government relationship, there is one dominant question. That 
question is, will tribal values and beliefs regarding our 
ancestors, our sensitive tribal cultural heritage items, and 
our sacred landscapes, be honored and respected by the United 
States government or not?
    This Committee has elevated tribal belief and values, which 
is why Indian Country so often turns to you for justice and 
support. Over the last few decades, as a result of your work, 
and that of others, and despite many challenges, much progress 
has been made to protect tribal sovereignty and culture.
    When you look for common threads in this work, one that 
stands out is Vice Chairman Udall, Indian Country's constant 
friend and ally. As this is Vice Chairman Udall's last Senate 
hearing, I would like to note that he has always answered the 
question I posed a moment ago by stating firmly that tribal 
beliefs should be honored and prioritized and that the United 
States should live up to its trust responsibilities.
    Vice Chairman Udall, going back to your time as the New 
Mexico Attorney General, followed by your service in the House, 
where you were a cosponsor of the original Esther Martinez 
Native Language Act, and finally in the Senate, you have been 
one of Indian Country's greatest supporters on a wide range of 
issues. The Udall name is legendary in Indian Affairs, standing 
for justice and humanity, and you have honorably continued that 
service and commitment to Native people. Your good work will be 
felt for many generations to come.
    In the cultural space, much good work has been done, and 
much remains, including items the Committee is working on right 
now. In the area of sensitive Tribal cultural heritage items, 
this Committee has done a lot of work on the Safeguard Tribal 
Objects of Patrimony Act, including adopting in July a 
comprehensive amendment developed in coordination with all the 
stakeholders and Federal agency experts. This act will address 
a gap in Federal law that makes it difficult to recover items 
from overseas and encourages unscrupulous individuals to sell 
sensitive cultural heritage items into foreign markets. You 
know that it took the Pueblo Acoma five years to recover the 
sacred ceremonial shield.
    There are still a few precious days left in this Congress 
to get this bill passed and to make a powerful statement about 
support for tribal culture. I urge this Committee to do all in 
its power to move the STOP Act forward.
    The Pueblo of Acoma has also fought hard to protect its 
sacred sites, such as the sacred landscape of the Greater Chaco 
Region. Despite the irreplaceable and deeply important nature 
of this area, it has faced largely unrestricted oil and gas 
development that is inching closer and closer to its center. 
The Chaco Cultural Heritage Area Protection Act, introduced by 
Vice Chairman Udall, would withdraw from future mineral 
development Federal land in an approximately 10-mile area 
surrounding the Chaco Culture National Historical Park, while 
still preserving the rights of tribes and allottees to develop 
on their own land, even in the withdrawal area.
    Again, Vice Chairman Udall has been instrumental in 
securing funding for a tribally led cultural resource study to 
identify which areas are most sensitive and to limit mineral 
leases pending completion of that study. We urge the 
Committee's support for this legislation.
    The Pueblo of Acoma has devoted significant resources into 
the revitalization of our language. I have testified before 
this Committee on our experience in using ANA grants to seed a 
linguistic and cultural movement in the Pueblo of Acoma.
    Language is foundational to our cultural sovereignty and 
survival. We urge this Committee to support a diverse body of 
Federal measures focused on Native language and cultural 
transmission. Some of these measures include increased 
investment in Indian Head Start, which has become central to 
our efforts to educate and engage our young in Acoma culture; 
reauthorization of the Esther Martinez Act, a law which has 
been successful in advancing Native language revitalization 
efforts; continuing funding for ANA grants; and finally, 
passage of the Durbin Feeling Native American Languages Act.
    In closing, let me return to the question I posed at the 
beginning of my testimony: will tribal values and tribal 
beliefs regarding our ancestors, our sensitive tribal cultural 
heritage items, and our sacred landscapes, be honored and 
respected by the United States government, or not? I urge this 
Committee to please continue your vital work to ensure that the 
answer is always ``Yes.''
    Thank you.
    [The prepared statement of Mr. Vallo follows:]

  Prepared Statement of Hon. Brian D. Vallo, Governor, Pueblo of Acoma
    The Pueblo appreciates the opportunity to present information on 
this important topic to the Committee and your staff. For millennia, 
the Acoma people have worked to fulfill our inherent responsibility to 
maintain, live by, and protect our culture. This work is both internal, 
ensuring that we are keeping our language and culture alive, and 
external, protecting our traditions, cultural resources, and land from 
encroachment and desecration. The Pueblo is grateful for the 
opportunity to share our experiences with you. We hope that you will 
use this information to galvanize your efforts to uphold your trust 
responsibilities to Indian Country.
    We would also like to take this opportunity to thank Vice Chairman 
Udall for his years of advocacy on behalf of the Pueblos of New Mexico 
and other tribes throughout the United States. Through not only his 
position as a Senator but also as a leader on this Committee, he has 
fought hard for Indian Country. We understand that this is his last 
Committee hearing, and we extend to him our sincere gratitude for his 
service.
I. Cultural Preservation
a. Tribal Cultural Heritage Items
    The Pueblo has provided testimony to this Committee many times, 
explaining the problem of trafficking in tribal cultural heritage 
items, both domestically and abroad. The current federal laws often 
used to protect these items, the Native American Graves Protection and 
Repatriation Act (NAGPRA), 25 U.S.C.   3001-3013, 18 U.S.C.  1170, 
and the Archaeological Resources Protection Act (ARPA), 16 U.S.C.   
470aa-470m, have important limitations that leave many tribal cultural 
heritage items unprotected. Further, once a tribal cultural heritage 
item is exported--even if NAGPRA or ARPA prohibits it from being 
trafficked domestically--it is very difficult to stop trafficking and 
to bring it home. The Pueblo sees its sacred items set for sale 
domestically and abroad, and we are painfully aware of how current 
federal law falls short.
    With regard to stopping domestic trafficking, the Pueblo has worked 
alongside the New Mexico congressional delegation to secure funding 
each year to support the Department of the Interior's (DOI) prosecution 
of crimes under NAGPRA and other related laws. But more must be done. 
Amending NAGPRA and ARPA to do away with loopholes would make 
prosecution and deterrence much more feasible.
    With regard to international trafficking, the Safeguard Tribal 
Objects of Patrimony (STOP) Act of 2019, S. 2165 and H.R. 3846, is one 
bill that works to close current gaps in federal law. In 2016, Congress 
through the PROTECT Patrimony Resolution, H.Con. Res. 122, acknowledged 
these issues. In 2018, the Government Accountability Office released a 
report, GAO-18-537, that also acknowledged this problem. The Resolution 
supported the development of legislation and the report noted the need 
for explicit restrictions on the export of such items. The STOP Act 
addresses these issues.
    Among other things, the STOP Act puts into place the elements 
necessary--an explicit export prohibition and an accompanying export 
certification system--to utilize already-existing international 
mechanisms to stop illegal trafficking of tribal cultural heritage 
items that NAGPRA or ARPA prohibit from being trafficked domestically. 
The STOP Act is a narrow bill designed to close one particular gap in 
federal law. It has broad support within Indian Country and bipartisan 
support within Congress, and it was generated with significant input 
from federal agencies with the necessary expertise in this area. In 
fact, many of the Members of this Committee are cosponsors of the bill.
    The Committee held a hearing on the STOP Act on June 24, 2020, and 
on July 29, 2020, ordered the STOP Act to be reported favorably. During 
the markup before the Committee, the Committee adopted an amendment 
that incorporated expert feedback from tribal representatives, agency 
officials, art dealers, and others to ensure the STOP Act accomplishes 
its goals.
    The House Natural Resources Subcommittee on Indigenous Peoples of 
the United States held a hearing on the STOP Act on September 19, 2019, 
and the House Natural Resources Committee is ready to accept and move 
the Senate-passed version of the bill.
    We celebrate the strides the STOP Act has made. We ask the 
Committee to usher the STOP Act across the finish line.
b. Sacred Sites
    The Pueblo has been heavily involved in fighting to protect sacred 
landscapes. This includes ensuring that development decisions are only 
made when sufficient cultural resource analysis has taken place 
pursuant to the National Environmental Policy Act (NEPA), 42 U.S.C.   
4321 et seq., and the National Historic Preservation Act (NHPA), 54 
U.S.C.   300101 et seq. It also includes ensuring that sacred 
landscapes are properly considered when the federal government makes 
land management decisions pursuant to the Federal Land Policy and 
Management Act (FLPMA), 43 U.S.C.   1701 et seq.
    Tribes are inherently sovereign governmental entities to which the 
United States owes a trust responsibility. Despite this status, the 
United States has stripped tribes of legal title to most of their 
aboriginal territory, often relocating tribes entirely off their 
homelands. This means many tribes have important interests tied to land 
to which they do not have legal title--including, for example, 
interests related to cultural resources. Without legal mechanisms in 
place, tribes often lack a voice in important federal decisionmaking 
processes affecting land to which we have sacred ties. NEPA and the 
NHPA, when implemented correctly, provide tribes a seat at the table, 
and FLMPA requires the federal government to consider these issues when 
making public land use decisions.
    The Pueblo has utilized these and other tools to fight to protect 
its sacred sites. One such example is the sacred landscape of the 
Greater Chaco Region. For over 2,000 years, Pueblo people lived in 
Chaco Canyon, eventually moving outward into the land the Pueblos 
currently occupy. Their time in Chaco Canyon, movement outward across 
the landscape, and continued interaction with Chaco Canyon after 
departure have both resulted in a dense concentration of cultural 
resources--including vast pueblo structures, shrines, other sacred 
sites, and natural formations with culturally relevant modifications 
and meanings--and a sacred interconnected landscape.
    Yet, this sacred landscape has been riddled with oil and gas 
development, including on federal lands. A portion of the Greater Chaco 
Region is recognized as a National Historical Park and UNESCO World 
Heritage Site--called the Chaco Culture National Historical Park. 
Chacoan Outliers Protection Act of 1995, Pub. L. No. 104-11 (May 18, 
1995) (designating certain outlying sites as ``Chaco Culture 
Archaeological Protection Sites''); Pub. L. No. 96-550, Tit. V (Dec. 
19, 1980) (creating Park) (now codified at 16 U.S.C.   410ii-410ii-
7). But much of the Greater Chaco Region is not protected, and further, 
many of the cultural resources in these unprotected areas have not been 
surveyed and documented.
    The Pueblo has joined together with others to protect the Greater 
Chaco Region through all mechanisms available. It has engaged through 
NEPA and the NHPA in DOI's efforts to amend the FLPMA resource 
management plan (RMPA) that guides development decisions in the area--
although COVID-19 has now made meaningful tribal consultation on the 
RMPA impossible. The Pueblo has also worked closely with DOI and 
Congress to secure funding for a tribally-led cultural resource study 
of the Greater Chaco Region, appropriated in the FY 2020 appropriation 
legislation, which the Pueblo hopes will inform DOI's development 
decisions. However, DOI provided only half of the funding appropriated 
by Congress to the Chaco Heritage Tribal Association (CHTA), an 
organization representing Pueblos and the Hopi Tribe, and thus 
additional funding is needed to complete the study the Pueblos believe 
DOI requires. Therefore, we urge Congress to appropriate additional 
funding for the CHTA's study.
    The Pueblo has also worked alongside a long list of stakeholders to 
permanently protect a critical area of the Greater Chaco Region. It has 
advocated for the Chaco Cultural Heritage Area Protection Act, S. 1079 
and H.R. 2181, which would withdraw from future mineral development 
federal land within an approximately 10-mile withdrawal area 
surrounding the Chaco Culture National Historical Park, including its 
outliers. The bill would explicitly preserve the rights of tribes and 
allottees to develop on their land. In the interim, and while the 
tribally-led cultural resource study remains pending, the Pueblo and 
other stakeholders have worked alongside the New Mexico Congressional 
delegation to secure a moratorium via the FY 2020 appropriation 
legislation to prevent DOI from carrying out mineral leasing in the 
withdrawal area pending completion of the study. Pub. L. No. 116-94, 
Div. D, Title IV, Sec. 442 (2019); see also 165 Cong. Rec. 11281 (Dec. 
17, 2019). We urge Congress to maintain this moratorium in future 
appropriation legislation.
c. Tribal Historic Preservation Officers (THPOs)
    Sacred sites are a vital part of our heritage, marking the paths of 
our existence and shaping our worldviews as Pueblo People. In most, if 
not all situations, the only way to identify these sacred sites, which 
may exist miles from our present villages, is through Native eyes. We 
must be involved in Section 106 and NEPA decisionmaking processes from 
the outset. Otherwise, there is a heightened risk that outside 
evaluators will misidentify sacred sites and contribute to the loss of 
irreplaceable aspects of our cultural identity. We urge the Committee 
to work with tribal leaders on identifying ways to strengthen 
meaningful tribal involvement in these critical review processes.
    In recent years, an increasing number of tribal governments have 
established THPOs equivalent to state programs under the NHPA to lead 
these activities. Federal funding, however, has not kept up with this 
expansion. It is thus difficult for tribal governments to meet their 
preservation compliance duties and responsibilities, which include 
working with non-tribal governments on site identification, conducting 
surveys, compiling data and samples, documenting best practices, and 
assisting in museums and research centers that preserve and share 
tribal material culture. The expansion of THPO positions across Pueblo 
and Indian Country is a positive development in advancing tribal self-
governance and cultural sovereignty. Additional federal support for the 
THPO program is needed, however, to facilitate this invaluable work.
d. Wildlife and Wild Spaces
    In the Pueblo worldview, we are stewards of the earth's natural 
resources-land, water, air, minerals, and wildlife. Acoma supports 
policy and legislation that provides for the protection and management 
of all these cultural and natural resources, as well as a requirement 
for federal-tribal collaboration when these resources are affected in 
any way. We support a policy that requires in-depth collaborative 
efforts to arrive at mutual outcomes where natural resources on or near 
tribal lands could be destroyed or diminished.
    The effective management and conservation of our natural resources 
is not limited to the waters, soil, and trees that form the rich 
landscape of Pueblo Country. We must also account and appropriately 
care for the diversity of wildlife that is meaningful to our culture 
and essential to maintaining our ecosystems' equilibrium. Further, each 
species possesses its own inherent value and should be protected by the 
federal government. The Bureau of Indian Affairs Endangered Species 
Program provides tribes with the technical assistance and financial 
resources to protect endangered species on tribal lands through natural 
resources restoration and management, as well as economic development. 
This program, along with those housed within the Department of Fish and 
Wildlife Services, will only continue to gain in importance as wildlife 
habitats are disrupted and the effects of climate change threaten 
species' welfare.
e. Climate Change
    Climate change poses an existential threat to our Pueblo beliefs, 
culture, and identity. Acoma is designated as a National Trust Historic 
Site. As such, our Pueblo itself is recognized as a finite, 
irreplaceable resource. The surrounding land and its natural resources 
form the essence of who we are as Pueblo People across generations: our 
origin stories are rooted in its geographic features, our contemporary 
life finds sustenance in its flora and fauna, and our future 
generations will shape their identity and dreams in the light of its 
plateaus. This intimate relationship is replicated in tribal 
communities across the country. For all of us, climate change poses a 
disconcerting and tangible threat to the continued existence of our 
traditional practices and unique cultural identities.
    Across Pueblo Country, we have experienced the harmful effects of 
major wildfires, droughts, and floods. Invasive species, drought 
conditions, disappearing tree lines, intense wildfires, and accelerated 
rates of erosion are also taking an increasing toll on our agricultural 
and natural resources. The ecosystems and well-being of our environment 
are being dramatically affected--and sometimes permanently altered--
with each new occurrence. We need only look to our sister Pueblo, the 
Pueblo of Santa Clara, to see the fundamental changes wrought by 
natural disasters heightened by climate change on the Santa Clara Creek 
and Canyon ecosystems. It will take generations for Santa Clara's 
traditional homeland and spiritual sanctuary to recover from the 
devastation and, because of climate change, it is not clear how that 
future will unfold.
    Our Earth Mother is our homeland; it is the place we have been 
entrusted with since time immemorial. We devote the resources we can to 
the healing of our land to protect our community, and, through cultural 
practice, we care for the vast landscapes beyond our Pueblo, the 
oceans, air, water, and the sacred core of the Earth, however, we do 
not have the resources to do it alone. The federal government must take 
steps to effectively manage the meta-factors that drive climate 
change--such as worldwide deforestation, fossil fuel consumption, and 
greenhouse gas emissions--before it is too late. Acting on climate 
change today is a moral and legal imperative, essential to all of us as 
Pueblo People and Americans during a period of what now appears to be 
almost inevitable rapid climate change.
    Two critical but underutilized and underfunded federal programs can 
help tribes in this existential battle. The DOI Tribal Climate 
Resilience and Cooperative Landscape Conservation Programs equip tribes 
with tools to manage resource stressors, develop adaptive management 
plans, and engage in intergovernmental coordination. Access to these 
resources is limited, however, by federal funding. Prioritization of 
these programs would help us protect our homelands for future 
generations.
II. Language and Arts
a. Esther Martinez
    The Pueblo worldview is contained in our languages. In addition to 
maintaining tribal life ways, we have established various programs and 
methods in order to revitalize and preserve what are considered some of 
the most ancient and distinct languages in America. Some Pueblo 
languages are so unique they are not spoken anywhere else in the world. 
The Esther Martinez Native American Languages Preservation Act is a 
singular piece of legislation benefitting indigenous people and 
communities. It has empowered tribes to make significant strides in 
revitalizing Native languages across the United States. Biennial 
evaluations by the Department of Health and Human Service, where Esther 
Martinez programs are housed, show that grantees increase the abilities 
of more than 4,000 youth and adults to speak a Native language on a 
yearly basis. These same grantees train 170-280 Native language 
teachers each year.
    The Esther Martinez Act is also a potent tool for tribally-driven 
programs to address the impacts of historical trauma on their 
communities. Native language instruction and the implementation of 
culturally based education programs are proven to be critical factors 
in fostering community resilience and Native student confidence and 
success in later years. For example, students in language immersion 
programs demonstrate substantial improvement in their academic 
performance and testing. Data shows that Native students excel in 
S.T.E.M related subjects largely attributable to their language skill 
set. Native languages offer a unique thought process and a way to 
interpret the world and its interactions.
    Our Native languages are the adhesive that holds our cultural, 
religious and traditional beliefs together and enables those beliefs to 
be passed on. As communities that have faced prolonged and insidious 
efforts to eradicate our Native identities, the support offered by the 
Esther Martinez Act should be maintained and expanded going forward. 
Acoma urges this Committee to reauthorize the Esther Martinez Act to 
strengthen indigenous cultural expression and facilitate the 
transmission of Native languages to current and future generations.
b. Durbin Feeling Native American Languages Act of 2020
    Acoma Pueblo supports S. 4886, the ``Durbin Feeling Native American 
Languages Act of 2020,'' that would amend the Native American Programs 
Act of 1974 to provide flexibility and reauthorization to ensure the 
survival and continuing vitality of Native American languages. The 
amendment would require the Administration for Native Americans (ANA) 
to conduct a survey of Native languages. Key data to be collected would 
include information on language vitality, current language 
revitalization/maintenance practices, and unmet needs for advancing 
these efforts, among other topics. Critically, the survey would have to 
be designed in close consultation with tribal leaders and linguists to 
ensure that data collection is completed in a culturally-sensitive 
manner and with guarantees of ongoing tribal input on covered topics. 
The survey would be conducted every five years and result in a 
comprehensive report to Congress on the status of Native languages in 
America.
    To our knowledge, there is no federal entity engaging in regular 
and compendious data collection or reporting on Native languages. S. 
4886 would fill this informational gap. Access to linguistic data-
collected as it will be in a tribally-driven and culturally sensitive 
manner--would help tribes in shaping their language revitalization 
programs. It would also serve as a beneficial tool for ensuring that 
federally funded Native language initiatives are receiving the 
necessary funding and support to carry out their missions. We look 
forward to working with the Committee on advancing this valuable piece 
of legislation.
c. Administration for Native Americans
    Since its establishment in 1974 pursuant to the Native American 
Programs Act, the ANA has served as a valuable resource in helping 
Native communities achieve their goals in self-sufficiency and cultural 
preservation. The ANA provides discretionary grant funding for 
community-based projects, as well as training and technical assistance. 
The beauty of ANA grants lies in the control that is given to tribal 
applicants in identifying an area of need within their community and 
developing a plan of action to address it with federal funding. The 
singular focus on community-based and community-driven projects that 
promote the exercise of self-determination and cultural flourishing 
makes the ANA unique within the federal system.
    Acoma has over a decade of experience working with the ANA. Our 
first award was a planning grant in 1996 to establish a community-based 
language initiative known as the Acoma Language Retention Program. The 
Program's focus was on re-strengthening the link between the Keres 
language and Acoma cultural practices through an ambitious plan for 
language revitalization aimed at younger generations in the community. 
The community identified the widening disconnect between the number of 
knowledgeable Keres speakers, particularly among Acoma youth, and the 
level of engagement with our traditional cultural practices as a 
critical issue. ANA provided financial support enabling us to establish 
its first language program tasked with finding solutions to this issue.
    The ANA was available to us as a resource throughout the grant 
process. Critically, they limited their assistance to the technical 
aspects of the grant, such as data analysis and reporting final 
outcomes. It was left to Acoma to decide what was appropriate in 
carrying out the Program's goals. ANA operates on the understanding 
that tribal grantees have a specific vision for their communities and 
know what will work best for them. It does not dictate how federal 
funds should be used. Instead ANA grants are founded on and seek to 
advance the expression of our sovereignty by focusing on project 
outcomes and facilitating the realization of grantees' self-
determination goals. While other federal funding sources include self-
determination as one of many factors to be considered in a grant 
application and implementation process, the ANA is one of the rare 
federal partners that makes it the determinative factor in a grant 
award.
    The first generation of children to participate in two-week summer 
language and culture immersion programs we subsequently developed with 
ANA grant funds are now adults and parents. Many have become key 
participants in the socio-cultural traditions of the Pueblo. Those of 
us from the community have observed how those children have grown up 
and been shaped by the availability of Keres cultural programming. Now, 
the children of that first generation of beneficiaries have the 
opportunity to participate in Keres language classes, both in the 
community and in some local schools, are following in the footsteps of 
their parents and relatives in being integrated into the cultural 
practices and linguistic tradition of our community. We have been made 
stronger from the inside because of it. The benefits of that original 
ANA short-term planning grant continue to translate into long-term 
positive gains for our community.
    We have also been able to share the strength and beauty of our 
community with others pursuant to an ANA Social and Economic 
Development Strategies (SEDS) grant for the planning and development of 
the Sky City Cultural Center and Haak'u Museum. Acoma Sky City is the 
heart of our community. We have lived at our mesa-top home for at least 
1,000 years, making it the oldest continuously inhabited community in 
the United States. Acoma religious, cultural, and social life revolves 
around Sky City, both on a daily basis and during times of ceremony. 
ANA funding has been instrumental in preserving this cultural resource 
for present and future generations. We encourage Congress to maintain 
strong support for the ANA to help tribal nations achieve their long-
term linguistic and cultural goals, critical to the fulfillment of our 
inherent responsibility.
d. Indian Head Start
    Indian Head Start has been a vital part of Head Start since its 
inception in 1965, and it is currently the most important and 
successful federal program focused on the needs of Native youth and 
families in early childhood education. Currently, Indian Head Start and 
Early Head Start serves 22,379 children in more than 200 separate 
programs across 26 states. Our programs are unique in that they tend to 
be located in rural communities that are often affected by hardships 
such as poverty, high rates of crime, limited or non-existent 
transportation networks, and limited financial and qualified personnel 
resources. Indian Head Start strives to address these challenges 
through a focus on the whole individual--through education, health, 
language, and culture--as well as on the whole family and community, 
creating a vibrant and safe learning environment for our Native 
children.
    Indian Head Start is founded on a three-generational approach 
provides an array of services tailored to meet the needs of children, 
parents, and (increasingly) grandparents. For example, programs may 
offer family nutrition or literacy workshops for parents and guardians. 
For Indian Head Start, this model is especially important given the 
critical role the program fills in addressing the unique needs of 
Native children, parents, and communities. Indian Head Start supports 
Native parents by providing access to job assistance trainings, 
healthcare services, and a reliable source of safe and nurturing early 
childhood education. Native children are empowered with self-esteem, 
high quality educational services, safe space, and nutritional meals to 
support their healthy development.
    Further, through the integration of culturally and linguistically 
appropriate classroom practices, Indian Head Start enables Native 
communities to take the lead in preserving, revitalizing, and 
reclaiming their heritage. This is achieved most commonly through the 
integration of elders into the classroom. Elders are teachers and role 
models in their communities who impart tradition, knowledge, culture, 
and lessons--all of which have been proven to be key contributors to 
Native student resiliency and success in later life. Further, for many 
communities, elders represent the last stronghold of tribal languages 
and traditions that were very nearly lost during the boarding school 
and termination eras of federal Indian policy. Through Indian Head 
Start we have been able to make tremendous strides in sowing the seeds 
of language revitalization and educational success for present and 
future generations.
III. Co-Management of Public Lands
    The stewardship of land, minerals, water and other natural 
resources is key to both the economic well-being of Pueblo People and 
to our cultural survival. Every day, Acoma and sister Pueblos strive to 
balance these interests.
    The vast majority of federal lands are carved out of tribal 
ancestral homelands. The historical and spiritual connection of tribes 
to federal lands was never extinguished. Courts acknowledge that tribes 
retain rights to hunt, fish, and gather on federal lands. Federal laws 
acknowledge the continued right of tribes to access federal lands to 
pray, conduct ceremonies, and gather medicinal plants. Federal laws and 
executive orders also require federal land managers to consult with 
tribal governments prior to taking action that would affect the 
integrity of federal lands. For example, the Pueblo of Laguna worked 
with the Department of Agriculture and the Forest Service as a 
Cooperating Agency in the preparation of an Environmental Impact 
Statement for the Cibola National Forest Plan Revision. Such beneficial 
partnerships better ensure that tribal interests are taken into 
consideration in the development of the federal land resource and 
management plans.
    In addition, there are existing federal laws that can facilitate 
the successfully co-management of public lands to the advance of tribal 
sovereignty. For instance, the Tribal Forest Protection Act (TFPA), 
Pub. L. 108-278, provides authorities to tribal governments to co-
manage federal lands bordering or adjacent to tribal lands to better 
protect trust and federal environmental resources from fire, disease, 
and other threats. It also advances tribal and federal interests in the 
development of land resource and management plans. Empowering tribal 
governments as caretakers to protect tribal, trust, and federal 
resources through co-management arrangements is a smart, cost-saving 
policy. Yet, efforts to implement the TFPA's beneficial provisions have 
been impeded. We recommend that Congress direct the Interior to 
prioritize TFPA implementation within the U.S. Forest Service to 
facilitate more beneficial partnership under this existing law.
IV. Government-to-Government Tribal Consultation
    All interactions between the federal government and tribes lay over 
the sacred government-to-government tribal consultation obligation. For 
without adherence to this obligation, the federal government cannot 
support our work to advance our tribal self-governance and cultural 
sovereignty for future generations.
    The United States has a duty to consult with tribes when it 
undertakes any action that affects us, even when those actions are 
aimed at aiding our exercise of sovereignty. This duty grows from our 
status as sovereign governments, the government-to-government 
relationship the United States carries on with each tribe, and the 
trust obligations it owes.
    In furtherance of its obligations, the Executive Branch has taken 
on a duty to consult with tribes on federal policies that have tribal 
implications. Exec. Order No. 13175, 65 Fed. Reg. 67249 (Nov. 9, 2000). 
Each agency was called on to create its own consultation policy. 
President Barack Obama, Memorandum for Heads of Executive Departments 
and Agencies, re Tribal Consultation (Nov. 5, 2009) (setting forth 
process for implementing Exec. Order No. 13175). DOI, for example, 
enacted a tribal consultation policy under this mandate. Dep't of 
Interior, Department of Interior Policy on Consultation with Indian 
Tribes; see also DEP'T OF INTERIOR, Sec. Order No. 3317, DEPARTMENT OF 
THE INTERIOR POLICY ON CONSULTATION WITH INDIAN TRIBES (2011). Further, 
in many situations, such as under the NHPA, tribal consultation is also 
statutorily mandated.
    We urge the Committee to continue to engage in open and honest 
dialogue with tribes as it pursues legislation and policies that affect 
us. And we ask that you help those Members and Committees of Congress 
less steeped in this sacred duty to understand their tribal 
consultation obligations.
    We also strongly recommend continued support for tribal advisory 
committees at federal departments and agencies as a highly effective 
means of advancing the government-to-government relationship and 
providing substantive feedback on agency programs and policies 
affecting Pueblos and Indian Country. Tribal advisory committees are 
not a substitute for tribal consultation. They do, however, offer a 
vital source of ongoing discourse on the development and implementation 
of federal policies impacting tribal communities and people. They serve 
to strengthen the government-to-government relationship and, when done 
right, streamline the provision of federal programs and tribal services 
to the long-term benefit of our communities and families. It must 
continue as a driving force within the federal government going 
forward.
    Da'wa'eh; Thank you.

    The Chairman. Thank you, Governor Vallo.
    Now we will turn to the Honorable Kirk Francis, President, 
United South and Eastern Tribes Sovereignty Protection Fund, 
Nashville, Tennessee.

  STATEMENT OF HON. KIRK FRANCIS, PRESIDENT, UNITED SOUTH AND 
           EASTERN TRIBES SOVEREIGNTY PROTECTION FUND

    Mr. Francis. Good afternoon, everyone. I wish I could be 
there with you in person. It is an honor to be here with you 
all, Chairman Hoeven, Vice Chairman Udall, members of the 
Committee. Thank you for this opportunity to provide testimony 
on necessary advancements in the delivery of the trust 
obligation, the promotion of tribal self-governance, and the 
recognition of our inherent sovereignty.
    We appreciate the forward looking nature of this hearing as 
we continue to see change to our relationship with the United 
States, change that will lead toa more appropriate, diplomatic 
relationship for the 21st century.
    My name is Kirk Francis, I proudly serve as the Chief of 
the Penobscot Indian Nation in the State of Maine, and 
president of the USET Sovereignty Protection Fund.
    Before I begin, I would like to also acknowledge the Vice 
Chairman's distinguished career. Mr. Vice Chairman, you have 
been a consummate friend and partner to tribal nations, 
committed to justice and progress for our people. On behalf of 
USET, our family and quite frankly, all of Indian Country, we 
thank you and honor you for your service.
    As one of the most challenging years this Nation has seen 
in generations draws to a close, Indian Country finds itself at 
a turning point in our relationship with the United States. 
2020 brought extreme challenges, sorrow and upheaval to tribal 
nations and all across America. As COVID-19 tore through our 
communities, our Country engaged in a reckoning with its past 
and looked forward to a more honorable future. We have 
consistently called upon the United States to fulfill its 
sacred promises to tribal nations and to act with honor and 
honesty in its dealings with us. But the pandemic has exposed 
how Federal neglect and inaction have created the circumstances 
facing tribal nations. The time is long overdue for a 
comprehensive overhaul of the trust relationship and 
obligations, one that results in the U.S. keeping its promises.
    Though multiple advancements have been made due to a lot of 
hard work by our friends on this call on Federal Indian policy 
over the years, the 2013 VAWA amendments, the Progress Act and 
other expansions of self-governance as well as economic 
advancements. However, the deep and chronic failures facing 
Indian Country cannot be addressed without bold, systemic 
changes. For example, the full extent of our inherent 
sovereignty continues to go unacknowledged, and in some cases 
is actively opposed by other units of government, so as to 
undermine the provision of essential services to our people, 
including such vital services as public safety, as well as the 
exercise of our cultures.
    A gap in criminal jurisdiction stems from this failure to 
recognize our inherent sovereignty, and tribal nations are 
barred from prosecuting offenders. When the Federal Government 
fails in its obligations, criminals are free to offend with 
impunity.
    Tribal nations must have full criminal jurisdiction over 
our lands as well as the people on them through a fix to the 
Supreme Court decision in Oliphant. Related, we again remind 
this body that some tribal nations are living under restrictive 
settlement acts that further limit our ability to exercise 
criminal jurisdiction. We assert that Congress did not intend 
these land claim settlements to forever prevent a handful of 
tribal nations from taking advantage of beneficial laws and for 
all of Indian Country. We continue to request the opportunity 
to explore solutions to this problem with the Committee.
    It is also incumbent upon all branches of the U.S. 
Government to ensure the protection of sacred sites. This 
includes seeking the consent of tribal nations for Federal 
actions impacting their lands and people. Broadly, the U.S. 
must work to reform the tribal consultation process. Meaningful 
consultation requires that dialogue with tribal partners occur 
with a goal of reaching consent.
    As it is for any sovereign, economic sovereignty is 
essential to Indian Country's ability to be self-determining 
and self-sufficient. It is critical that the lack of government 
parity be addressed, so that we may conduct economic 
development activities for the benefit of our citizens. This 
includes the advancement of reforms that would address 
inequities in the tax code and eliminate things such as dual 
taxation.
    We also continue to call for parity for all tribal nations 
in the restoration of tribal homelands. Despite the success of 
the tribal nations exercising authority under the ISDEAA, many 
opportunities still remain to improve and expand upon its 
principles. An extension of tribal self-governance to all 
Federal programs would be the next evolutionary step in the 
Federal Government's recognition of our sovereign status.
    Above all, the COVID-19 crisis has highlighted the urgent 
need to provide full and guaranteed Federal funding to tribal 
nations. In addition, much like the U.S. investment in 
rebuilding European nations following World War II via the 
Marshall Plan, the government should commit to a system in the 
rebuilding of tribal nations, as our current circumstances are 
directly attributable and tied to U.S. policies.
    With a new year on the horizon, and as we look toward 
recovery from COVID-19, USET calls upon Congress, the 
Administration and the whole Federal Government to join us in 
working toward a legacy of change for tribal nations.
    It is again my honor to be here with other tribal leaders 
and distinguished guests and members of Congress. I am happy to 
answer any questions.
    [The prepared statement of Mr. Francis follows:]

 Prepared Statement of Hon. Kirk Francis, President, United South and 
               Eastern Tribes Sovereignty Protection Fund
    Chairman Hoeven, Vice Chairman Udall, and members of the Senate 
Committee on Indian Affairs, thank you for this opportunity to provide 
forward-looking testimony on necessary advancements in the delivery of 
the federal trust obligation, the promotion of Tribal self-governance, 
and the recognition of our inherent sovereignty. We appreciate the 
prospective nature of this hearing, as we continue to seek foundational 
and systemic change to our relationship with the United States; change 
that lead to a more appropriate, respectful, honorable, and modern 
diplomatic relationship for the 21st century. I am Kirk Francis, Chief 
of the Penobscot Indian Nation and President of the United South and 
Eastern Tribes Sovereignty Protection Fund.
    USET Sovereignty Protection Fund (USET SPF) is a non-profit, inter-
tribal organization advocating on behalf of thirty-three (33) federally 
recognized Tribal Nations from the Northeastern Woodlands to the 
Everglades and across the Gulf of Mexico. \1\ USET SPF is dedicated to 
promoting, protecting, and advancing the inherent sovereign rights and 
authorities of Tribal Nations and in assisting its membership in 
dealing effectively with public policy issues.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chickahominy Indian Tribe (VA), 
Chickahominy Indian Tribe-Eastern Division (VA), Chitimacha Tribe of 
Louisiana (LA), Coushatta Tribe of Louisiana (LA), Eastern Band of 
Cherokee Indians (NC), Houlton Band of Maliseet Indians (ME), Jena Band 
of Choctaw Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee 
Wampanoag Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), 
Mississippi Band of Choctaw Indians (MS), Mohegan Tribe of Indians of 
Connecticut (CT), Monacan Indian Nation (VA), Nansemond Indian Nation 
(VA), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Rappahannock Tribe 
(VA), Saint Regis Mohawk Tribe (NY), Seminole Tribe of Florida (FL), 
Seneca Nation of Indians (NY), Shinnecock Indian Nation (NY), Tunica-
Biloxi Tribe of Louisiana (LA), Upper Mattaponi Indian Tribe (VA) and 
the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
    Before I begin, I would like to acknowledge that this is the final 
Senate Indian Affairs hearing of Vice Chairman Udall's distinguished 
career. Mr. Vice Chairman--you have been a consummate friend and 
partner to Tribal Nations, committed to justice and progress for our 
people. Your dedication to upholding and advancing the trust obligation 
and Tribal sovereignty is evident in your many accomplishments 
alongside and on behalf of Indian Country over more than two decades of 
federal service. While we are sad to see you leave Capitol Hill, USET 
SPF extends our gratitude, support, and well wishes to you as you 
continue on your journey. On behalf of our USET SPF family of Tribal 
Nation, and all of Indian Country, we thank you and honor you for your 
service.
Introduction
    As one of the most challenging years this nation has seen in 
generations draws to a close, Indian Country finds itself at an 
inflection point in our centuries-long relationship with the United 
States. 2020 brought extreme challenges, sorrow, and upheaval to Tribal 
Nations and the whole of America. As COVID-19 tore through our 
communities, our country engaged in a reckoning with its past and 
looked toward a more honorable future. USET SPF has consistently called 
upon the United States to deliver and fulfill its sacred promises to 
Tribal Nations and to act with honor and honesty in its dealings with 
Indian Country. But the global pandemic has exposed for the world to 
see the extent to which generations of federal neglect and inaction 
have created the unjust and untenable circumstances facing Tribal 
Nations. The time is long overdue for a comprehensive overhaul of the 
trust relationship and obligations, one that results in the United 
States finally keeping the promises made to us as sovereign nations in 
accordance with our special and unique relationship.
    As Native people, we are called to not only act on behalf of our 
people here today, but for those who came before us and those who will 
come after us--the future of our nations. We must always remember this 
mission as we work uphold, advance, and protect our sovereign rights 
and authorities for generations to come. At a time when our nations are 
facing great challenges, including existential threats, this charge 
becomes all the more critical.
    While some notable advancements have been made in federal Indian 
policy over the last several years, the deep and chronic failures 
facing Indian Country will continue to plague us without bold, systemic 
changes. Centuries of neglect and dishonorable dealings, as well as a 
relationship predicated on the demise of our governments and our 
inability to self-govern, cannot be wiped away by working within the 
parameters of a system built to work against our interests. It is long 
past time that we create fundamental and lasting change to U.S.-Tribal 
Nation relations in order to truly improve the delivery of federal 
trust and treaty obligations. This includes the removal of existing 
barriers that interfere with our ability to implement our inherent 
sovereign authority to its fullest extent, without state and/or federal 
interference, which, in turn, will position Indian Country to realize 
its greatest potential.
Recognition of Inherent Tribal Sovereignty
    Tribal Nations are political, sovereign entities whose status stems 
from the inherent sovereignty we have as self-governing peoples, which 
pre-dates the founding of the Republic. The Constitution, treaties, 
statutes, Executive Orders, and judicial decisions all recognize that 
the federal government has a fundamental trust relationship to Tribal 
Nations, including the obligation uphold the right to self-government. 
Our federal partners must fully recognize the inherent right of Tribal 
Nations to fully engage in self-governance, so we may exercise full 
decisionmaking in the management of our own affairs and governmental 
services, including jurisdiction over our lands and people.
    However, the full extent of our inherent sovereignty continues to 
go unacknowledged and, in some cases, is actively restricted by other 
units of government, including the federal, as well as state and local 
governments. This serves to undermine the provision of essential 
services to our people, including such vital services as public safety, 
as well as the continuity and exercise of our cultures. This has 
created a crisis in Indian Country, as our people go missing and are 
murdered, and are denied the opportunity for safe, healthy, vibrant 
communities and traditions enjoyed by other Americans.
Criminal and Civil Jurisdiction over our Homelands
    One important reason for higher rates of crime in Indian Country is 
the gap in jurisdiction stemming from the United States' failure to 
recognize our inherent criminal jurisdiction, allowing those who seek 
to do harm to hide in the darkness away from justice. When Tribal 
Nations are barred from prosecuting offenders and the federal 
government fails in the execution of its obligations, criminals are 
free to offend over and over again.
    The United States has slowly chipped away at Tribal Nations' 
jurisdiction. At first, it found ways to put restrictions on the 
exercise of our inherent rights and authorities. And eventually, as its 
power grew, the United States shifted from acknowledging Tribal 
Nations' inherent rights and authorities to treating these rights and 
authorizes as grants from the United States. With this shift in 
mindset, recognition of our inherent sovereignty diminished, including 
our jurisdictional authorities.
    For example, in the 1978 decision of Oliphant v. Suquamish Indian 
Tribe, the Supreme Court struck what may be the biggest and most 
harmful blow to Tribal Nations' criminal jurisdiction. In that case, it 
held Tribal Nations lacked criminal jurisdiction over non-Native 
people, even for crimes committed within Indian Country. Without this 
critical aspect of sovereignty, which is exercised by units of 
government across the United States, Tribal Nations are unable achieve 
justice for our communities. While the United States has stripped 
Tribal Nations of our own jurisdiction and the resources we need to 
protect our people, it has not invested in the infrastructure necessary 
to fulfill its obligation to assume this responsibility. As a result, 
Indian Country currently faces some of the highest rates of crime, with 
Tribal citizens 2.5 times more likely to become victims of violent 
crime and Native women, in particular, subject to higher rates of 
domestic violence and abuse. Many of the perpetrators of these crimes 
are non-Native people.
    More recently, the federal government failed to recognize a Tribal 
Nation's sovereign right to protect its community from COVID-19. When 
it became clear that the state of South Dakota was not going to 
institute the public health measures necessary to control the spread of 
COVID-19 within its borders, the Cheyenne River Sioux Tribe (CRST) 
acted to protect its citizens by installing checkpoints on the highways 
leading to its homelands. These checkpoints have been immensely 
successful in identifying COVID and mitigating its spread in CRST's 
community. However, when the Tribal Nation refused to remove the 
checkpoints, the governor of South Dakota wrote to the White House and 
Department of Interior (DOI) to request intervention. Despite its legal 
obligation to uphold and defend Tribal sovereignty and self-governance, 
DOI threatened to withdraw CRST's law enforcement funding if it did not 
comply with the governor's request.
    It is important to note that over the last decade, the federal 
government has made some effort to better recognize Tribal Nation 
jurisdiction over our own lands. USET SPF is appreciative of the 
efforts of this body in strengthening and improving public safety 
across Indian Country. Though many Tribal Nations remain unable to take 
advantage of its provisions, the 2013 reauthorization of VAWA was a 
major victory for Tribal jurisdiction, self-determination, and the 
fight against crime in Indian Country. This law provides crucial 
opportunities for Tribal Nations to reassume responsibilities for 
protecting their homelands by restoring criminal jurisdiction over non-
Indian individuals in cases of domestic violence against Tribal 
citizens.
    However, Tribal Nations, the Department of Justice, and others are 
reporting oversights in the drafting of the law that prevent the use of 
special domestic violence criminal jurisdiction (SDVCJ) and the law 
from functioning as intended. USET SPF remains strongly supportive of 
several bills aimed at addressing these gaps, including the Justice for 
Native Survivors of Sexual Violence Act and the Native Youth and Tribal 
Officer Protection Act. Though their provisions we incorporated into 
2019 VAWA reauthorization proposals, they, along with VAWA, have not 
been approved by the 116th Congress.
    As sovereign governments, Tribal Nations have a duty to protect our 
citizens, and provide for safe and productive communities. This cannot 
truly be accomplished without the full restoration of criminal 
jurisdiction to our governments through a fix to the Supreme Court 
decision in Oliphant. While we call upon this and the 117th Congress to 
take up and pass the aforementioned legislation, we strongly urge this 
Committee to consider how it might take action to fully recognize 
Tribal criminal jurisdiction over all persons and activities in our 
homelands for all Tribal Nations. Only then will we have the ability to 
truly protect our people.
Restrictive Settlement Acts
    As we work to ensure that Tribal sovereignty is fully upheld, we 
again remind this body that some Tribal Nations, including some USET 
SPF member Tribal Nations, are living under restrictive settlement acts 
that further limit the ability to exercise criminal jurisdiction over 
their lands. These restrictive settlement acts flow from difficult 
circumstances in which states demanded unfair restrictions on Tribal 
Nations' rights in order for the Tribal Nations to have recognized 
rights to their lands or federal recognition. When Congress enacted 
these demands by the states into law, it incorrectly allowed for 
diminishment of certain sovereign authorities exercised by other Tribal 
Nations across the United States.
    Some restrictive settlement acts purport to limit Tribal Nations' 
jurisdiction over their land or to give states jurisdiction over Tribal 
Nations' land, which is itself a problem. But, to make matters worse, 
there have been situations where a state has wrongly argued the 
existence of the restrictive settlement act prohibits application of 
later-enacted federal statutes that would restore to Tribal Nations 
aspects of our jurisdictional authority, including VAWA and the Tribal 
Law and Order Act (TLOA). In fact, some USET SPF member Tribal Nations 
report being threatened with lawsuits should they attempt to implement 
TLOA's enhanced sentencing provisions. Congress is often unaware of 
these arguments when enacting new legislation. USET SPF asserts that 
Congress did not intend these land claim settlements to forever prevent 
a handful of Tribal Nations from taking advantage of beneficial laws 
meant to improve the health, general welfare, and safety of Tribal 
citizens. We continue request the opportunity to explore short- and 
long-term solutions to this problem with this Committee.
Cultural Sovereignty
    While the practice of spiritual and ceremonial traditions and 
beliefs varies significantly among USET SPF Tribal Nations, our 
spirituality is overwhelmingly place-based. From the Mississippi Band 
of Choctaw Indians' Nanih Waiyah mounds to the ceremonial stone 
landscapes of New England, each member Tribal Nation has specific 
places and locations that we consider sacred. These places are often 
the sites of our origin stories, our places of creation. As such, we 
believe that we have been in these places since time immemorial. 
Through these sites, we are inextricably linked to our spirituality, 
the practice of our religions, and to the foundations of our cultural 
beliefs and values. Our sacred sites are of greatest importance as they 
hold the bones and spirit of our ancestors and we must ensure their 
protection, as that is our sacred duty. As our federal partner in this 
unique government-to-government relationship, it is also incumbent upon 
all branches of the U.S. government to ensure the protection of these 
sites, including by upholding our own sovereign action.
    This includes seeking the consent of Tribal Nations for federal 
actions that impact our sacred sites, lands, cultural resources, public 
health, or governance. Broadly, the U.S. must work to reform the Tribal 
consultation process, as conducted by agencies across the federal 
government. Tribal Nations continue to experience inconsistencies in 
consultation policies, the violation of consultation policies, and mere 
notification of federal action as opposed to a solicitation of input. 
Letters are not consultation. Teleconferences are not consultation. 
Providing the opportunity for Tribal Nations to offer guidance and then 
failing to honor that guidance is not consultation. Meaningful 
consultation is a minimal standard for evaluating efforts to engage 
Tribal Nations in decisionmaking. Ultimately, free, prior, and informed 
Tribal consent, as described in the U.N. Declaration on the Rights of 
Indigenous Peoples, is required to fulfill federal treaty and trust 
responsibilities. The determination of what level of consultation is 
required should come from Tribal Nations. Meaningful consultation 
requires that dialogue with Tribal partners occur with a goal of 
reaching consent as a true reflection of a nation-to-nation diplomatic 
relations framework and understanding.
Economic Sovereignty
    As it is for any other sovereign, economic sovereignty is essential 
to Indian Country's ability to be self-determining and self-sufficient. 
Rebuilding of our Tribal Nations involves the rebuilding of our Tribal 
economies as a core foundation of healthy and productive communities. 
We celebrate and acknowledge the recent passage of the Native American 
Business Incubators Act and the Indian Community Economic Enhancement 
Act, but there is more work to done here, as well. Building strong, 
vibrant, and mature economies is more than just business development. 
It requires comprehensive planning to ensure that our economies have 
the necessary infrastructure, services, and opportunities for our 
citizens to thrive; thus resulting in stronger Tribal Nations and a 
stronger America. In order to achieve economic success, revenues and 
profits generated on Tribal lands must stay within Indian Country in 
order to benefit from the economic multiplier effect, allowing for each 
dollar to turn over multiple times within a given Tribal economy. It is 
critical that inequities and the lack of parity in policy and federal 
funding be addressed for Tribal Nations in order to fully exercise our 
inherent self-governance to conduct economic development activities for 
the benefit of our Tribal citizens.
    Further, the U.S. government has a responsibility to ensure that 
federal tax law treats Tribal Nations in a manner consistent with our 
governmental status, as reflected under the U.S. Constitution and 
numerous federal laws, treaties and federal court decisions. With this 
in mind, we remain focused on the advancement of tax reform that would 
address inequities in the tax code and eliminate state dual taxation. 
Revenue generated within Indian Country continues to be taken outside 
its borders or otherwise falls victim to a lack of parity. Similarly, 
Tribal governments continue to lack many of the same benefits and 
flexibility offered to other units of government under the tax code. 
Passage of comprehensive tax reform in 2017 without Tribal provisions 
was unacceptable, and our exclusion was inconsistent with expressed 
Congressional support to strengthen Tribal Nations. USET SPF continues 
to press Congress for changes to the U.S. tax code that would provide 
governmental parity and economic development to Tribal Nations.
Restoration of Tribal Homelands
    Possession of a land base is a core aspect of sovereignty, cultural 
identity, and represents the foundation of a government's economy. That 
is no different for Tribal Nations. USET SPF Tribal Nations continue to 
work to reacquire our homelands, which are fundamental to our existence 
as sovereign governments and our ability to thrive as vibrant, healthy, 
self-sufficient communities. And as our partner in the trust 
relationship, it is incumbent upon the federal government to prioritize 
the restoration of our land bases. The federal government's objective 
in the trust responsibility and obligations to our Nations must be to 
support healthy and sustainable self-determining Tribal governments, 
which fundamentally includes the restoration of lands to all federally-
recognized Tribal Nations, as well as the legal defense of these land 
acquisitions. With this in mind, USET SPF continues to call for the 
immediate passage of a fix to the Supreme Court decision in Carcieri v. 
Salazar.
Expansion and Evolution of Tribal Self-Governance
    Despite the success of Tribal Nations in exercising authority under 
the Indian Self-Determination and Education Assistance Act (ISDEAA), as 
well as the recently enacted Practical Reforms and Other Goals to 
Reinforce the Effectiveness of Self-Governance and Self-Determination 
(PROGRESS) for Indian Tribes Act, the goals of self-governance have not 
been fully realized. Many opportunities still remain to improve and 
expand upon its principles. An expansion of Tribal self-governance to 
all federal programs under ISDEAA would be the next evolutionary step 
in the federal government's recognition of Tribal sovereignty and 
reflective of its full commitment to Tribal Nation sovereignty and 
self-determination. In the case of COVID-19 response, it would provide 
for a streamlined and expeditious approach to the receipt and 
expenditures of funding from across the federal government, and ensure 
these resources can be utilized in ways that reflect the diversity of 
Tribal governments.
    USET SPF, along with many Tribal Nations and organizations, has 
consistently urged that all federal programs and dollars be eligible 
for inclusion in self-governance contracts and compacts. We must move 
beyond piecemeal approaches directed at specific functions or programs 
and start ensuring Tribal Nations have real decisionmaking in the 
management of our own affairs and assets. It is imperative that Tribal 
Nations have the expanded authority to redesign additional federal 
programs to serve best our communities as well as have the authority to 
redistribute funds to administer services among different programs as 
necessary. To accomplish this requires a new framework and 
understanding that moves us further away from paternalism.
    Examinations into expanding Tribal self-governance administratively 
have encountered barriers due to the limiting language under current 
law, as well as the misperceptions of federal officials. USET SPF 
stresses to the Committee that if true expansion of self-governance is 
only possible through legislative action, the Committee and Congress 
must prioritize legislative action on the comprehensive expansion of 
Tribal self-governance. This will modernize the federal fiduciary 
responsibility in a manner that is consistent with our sovereign status 
and capabilities. As an example, in 2013, the Self-Governance Tribal 
Federal Workgroup (SGTFW), established within the Department of Health 
and Human Services (HHS), completed a study exploring the feasibility 
of expanding Tribal self-governance into HHS programs beyond those of 
IHS and concluded that the expansion of self-governance to non-IHS 
programs was feasible, but would require Congressional action. However, 
despite efforts on the part of Tribal representatives to the SGTFW to 
attempt to move forward in good faith with consensus positions on 
expansion legislation, these efforts were stymied by the lack of 
cooperation by federal representatives. USET SPF urges the Committee 
and Congress to use its authority to work to legislatively expand 
Tribal self-governance to all federal programs where Tribal Nations are 
eligible for funding, in fulfillment of the unique federal trust 
responsibility to Tribal Nations.
    Further, Congress and the Administration should consider 
modifications to reporting requirements under ISDEAA and other methods 
of funding distribution. The administrative burden of current reporting 
requirements under ISDEAA including site visits, ``means testing,'' or 
other standards developed unilaterally by Congress or federal officials 
are barriers to efficient self-governance and do not reflect our 
government-to-government relationship. While obtaining data around 
Tribal programs is critical to measuring how well we as Tribal 
governments are serving our citizens and how well the federal 
government is delivering upon its obligations, Tribal Nations find 
themselves expected to report data in order to justify further 
investment in Indian Country. This runs counter to the trust 
obligation, which exists in perpetuity. The data collected by Tribal 
Nations must be understood as a tool to be utilized in sovereign 
decisionmaking, not to validate the federal government's fulfillment of 
its own promises.
    Because funding for Tribal Nations is provided in fulfillment of 
clear legal and historic obligations, those federal dollars should not 
be subject to an inappropriate, grant-based mentality that does not 
properly reflect our diplomatic relationship. USET SPF notes that 
federal funding directed to foreign aid and other federal programs are 
not subject to the same scrutiny. Grant funding fails to reflect the 
unique nature of the federal trust obligation and Tribal Nations' 
sovereignty by treating Tribal Nations as non-profits rather than 
governments. We reiterate the need for the federal government to treat 
and respect Tribal Nations as sovereigns as it delivers upon the 
fiduciary trust obligation, as opposed to grantees.
Full Funding for Federal Fiduciary Obligations
    The chronic underfunding of federal Indian programs continues to 
have disastrous impacts upon Tribal governments and Native peoples. 
Native peoples experience some of the greatest disparities among all 
populations in this country--including those in health, economic 
status, education, and housing. Indeed, in December 2018, the U.S. 
Commission on Civil Rights issued the ``Broken Promises'' Report, which 
found deep failures in the delivery of federal fiduciary trust and 
treaty obligations. The Commission concluded that the funding of the 
federal trust responsibility and obligations remains ``grossly 
inadequate'' and a ``barely perceptible and decreasing percentage of 
agency budgets.''
    Above all, the COVID-19 crisis is highlighting the urgent need to 
provide full and guaranteed federal funding to Tribal Nations in 
fulfillment of the trust obligation. While we unequivocally support 
budget stabilization mechanisms, such as Advance Appropriations, in the 
long-term, USET SPF is calling for a comprehensive reexamination of 
federal funding delivered to Indian Country across the federal 
government. Because of our history and unique relationship with the 
United States, the trust obligation of the federal government to Native 
peoples, as reflected in the federal budget, is fundamentally different 
from ordinary discretionary spending and should be considered mandatory 
in nature. Payments on debt to Indian Country should not be vulnerable 
to year to year ``discretionary'' decisions by appropriators. Recently, 
some in Congress have called for mandatory funding for specific 
agencies serving Indian Country. USET SPF strongly supports this 
proposal, which is more consistent with the federal trust obligation, 
and urges that this be realized via an entirely new budget component--
one that contains all of the funding dedicated to Indian Country. Not 
only would this streamline access to these dollars, this mechanism 
would reflect true prioritization of and reverence for America's trust 
obligation to and special relationship with Tribal Nations. While some 
will quickly dismiss this as unrealistic and untenable, when compared 
against the value of the land and natural resources the United States 
gained as part of the exchange, both voluntarily and involuntarily, it 
becomes evident that it is really only a matter of will and desire.
Marshall Plan for Indian Country--Rebuild and Restore Tribal 
        Infrastructure
    For generations, the federal government--despite abiding trust and 
treaty obligations--has substantially under-invested in Indian 
Country's infrastructure. While the United States faces crumbling 
infrastructure nationally, there are many in Indian Country who lack 
even basic infrastructure, such as running water and passable roads. 
Now, the nation and world are witnessing the deadly consequences of 
this neglect, as COVID-19 spreads through Tribal communities that are 
unable to implement such simple public health measures as frequent hand 
washing. The United States must commit to supporting the rebuilding of 
the sovereign Tribal Nations that exist within its domestic borders. 
Much like the U.S. investment in the rebuilding European nations 
following World War II via the Marshall Plan, the legislative and 
executive branches should commit to the same level of responsibility to 
assisting in the rebuilding of Tribal Nations, as our current 
circumstances are, in large part, directly attributable to the shameful 
acts and policies of the United States. In the same way the Marshall 
Plan acknowledged America's debt to European sovereigns and was 
utilized to strengthen our relationships and security abroad, the 
United States should make this strategic investment domestically. 
Strong Tribal Nations will result in a strengthened United States. At 
the same time, any infrastructure build-out, in Indian Country and 
beyond, must not occur at the expense of Tribal consultation, 
sovereignty, sacred sites, or public health.
Conclusion
    With a new year on the horizon and as we look toward recovery from 
the global pandemic, USET SPF calls upon Congress, the Administration, 
and the whole of the federal government to join us in working toward a 
legacy of change for Tribal Nations, Native people, and the sacred 
trust relationship. This year has underscored the urgent need for 
radical transformation in the recognition of our governmental status 
and the delivery of federal obligations our people. We can no longer 
accept the status quo of incremental change that continues to feed a 
broken system. The federal government must enact policies that uphold 
our status as sovereign governments, our right to self-determination 
and self-governance, and honor the federal trust obligation in full. We 
look forward to partnering with this Committee in an effort to advance 
these policies in the remaining days of this Congress, as well as the 
next.

    The Chairman. Thank you, President Francis.
    Now we will turn to John Echohawk, Executive Director, 
Native American Rights Fund, Boulder, Colorado.

   STATEMENT OF JOHN E. ECHOHAWK, EXECUTIVE DIRECTOR, NATIVE 
                      AMERICAN RIGHTS FUND

    Mr. Echohawk. Thank you, Mr. Chairman.
    I am pleased to have the opportunity to testify today in 
the Committee's oversight hearing. I am a citizen of the Pawnee 
Nation of Oklahoma, and the co-founder of the Native American 
Rights Fund, a non-profit national Indian legal defense fund 
headquartered in Boulder, Colorado, which is celebrating its 
50th anniversary this year.
    We have been involved in most of the major Indian rights 
cases over the years. I have been the Executive Director 
continuously since 1977, and have testified before 
Congressional committees many times over those years, including 
the Senate Committee on Indian Affairs.
    As we have already recognized, Senator Tom Udall, the Vice 
Chairman of the Committee, is retiring from the Senate, and I 
want to take this opportunity to recognize and honor him today. 
He has done great work for Native Americans over his many years 
of public service. I want to personally thank him for that.
    I have known him for many years. I was the first Native 
American law graduate from the University of New Mexico School 
of Law in 1970, and Senator Udall is also a UNM Law graduate in 
1977. I first met him when he was serving as Attorney General 
of the State of New Mexico, at a meeting with the conference of 
attorneys general. I have enjoyed working with him over the 
years on Native American issues and wish him well.
    We really appreciate all of the work that Senator Udall has 
done with us over the last two sessions of Congress in trying 
to secure passage of the Native American Voting Rights Act, 
which he sponsored with many of you Committee members as 
cosponsors.
    As you know, the Native American Voting Rights Act would 
establish the first of its kind Native American voting task 
force to provide equal access to voter registration and polling 
places, address the devastating effects of the 2013 Shelby 
County v. Holder Supreme Court decision by restoring tribal 
concurrence, affording equal treatment of tribal ids, requiring 
language assistance, furnishing Federal election observers, and 
requiring the Department of Interior to conduct annual voting 
consultation with Indian Tribes.
    Few Senators have shown the devotion to voting rights, 
particularly the voting rights of Native Americans, that 
Senator Udall has demonstrated over the years. In 2015, the 
Native American Rights Fund created the Native American Voting 
Rights Coalition, a coalition of national and regional grass 
roots organizations, academics and attorneys, advocating for 
equal access of Native Americans to the political process. It 
was founded to facilitated collaboration between members on 
coordinated approaches to the many barriers that Native 
Americans face in registering to vote, casting their ballot and 
having an equal voice in elections.
    Our first two actions were to conduct the largest ever 
survey of Native American voters, and conduct a series of nine 
field hearings across Indian Country to identify barriers faced 
by Native American voters. This resulted in thousands of pages 
of hearing transcripts, evidence of voter suppression. Senator 
Udall immediately identified this issue and began to draft the 
Native American Voting Rights Act to address the common 
barriers we identified. In so doing, he heard the voices of all 
those who spoke up at field hearings and brought them to the 
national stage. He heard them; he heard them and then did 
something about it.
    Senate Bill S. 739 was introduced by Senator Udall in 2019. 
This year, the Senator continued to pursue this issue by 
holding meetings and roundtables on the importance of the 
tribal vote and barriers to voting in rural communities. 
Joining the John Lewis Voting Rights Advancement Act, and 
adding Native American specific provisions to that as well. 
Just a few months ago, he led an effort urging the Department 
of Justice to immediately address the mass closure of voting 
locations in Native communities.
    He has shown unfailing leadership on voting rights of the 
most disenfranchised Americans. For that, the Native American 
Rights Fund will be forever grateful.
    The Native American Rights Fund represents the Ute Mountain 
Ute Tribe, the Hopi Tribe, and Zuni Pueblo in litigation 
challenging the President's diminishment of the Bears Ears 
National Monument in southeastern Utah in 2017. These ancestral 
lands of these tribes were protected as they requested when 
President Obama established the Bears Ears National Monument in 
2016, with the provision that recognized co-management of those 
lands by the tribes and the Federal Government.
    The tribes have sacred sites, former villages, burial 
grounds and other cultural resources on these ancestral lands 
now owned by the Federal Government that they would like to 
help protect with their traditional knowledge. We appreciate 
the support that Senator Udall and other members of this 
Committee have given for the tribal co-management concept.
    Finally, I want to conclude by thanking Senator Udall and 
other members of this Committee for their recognition and 
support of legislation that addresses the issue of missing and 
murdered indigenous women. This is one of the most serious 
issues in Indian Country. This Committee and this Congress is 
to be congratulated for passing the Not Invisible Act and 
Savanna's Act to ensure we finally address these important 
issues.
    That concludes my testimony. I will be pleased to answer 
any questions that Committee members might have. Thank you.
    [The prepared statement of Mr. Echohawk follows:]

  Prepared Statement of John E. Echohawk, Executive Director, Native 
                          American Rights Fund
    I am pleased to testify in the Committee's oversight hearing today 
titled ``From Language to Homelands: Advancing Tribal Self-Governance 
and Cultural Sovereignty for Future Generations.'' I am a co-founder of 
the Native American Rights Fund, the non-profit national Indian legal 
defense fund headquartered in Boulder, Colorado, which is celebrating 
its 50th anniversary this year. We have been involved in most of the 
major Indian rights cases over the years. I have been the Executive 
Director continuously since 1977 and have testified before 
Congressional committees many times over the years, including the 
Senate Indian Committee on Indian Affairs.
    Senator Tom Udall of New Mexico, Vice-Chairman of this Committee, 
is retiring from the Senate and I want to recognize and honor him 
today. He has done great work for Native Americans over his many years 
of public service and I want to thank him for that. I have known him 
for many years. I was the first Native American graduate from the 
University of New Mexico School of Law in 1970 and Senator Udall is 
also a UNM Law School graduate. I first met him when he was serving as 
Attorney General of the State of New Mexico, at a meeting with the 
Conference of Western Attorneys General. I have enjoyed working with 
him over the years on Native American issues and wish him well.
    We really appreciate all of the work he has done with us over the 
last two sessions of Congress in trying to secure passage of the Native 
American Voting Rights Act which he sponsored with many of you 
Committee members as co-sponsors. As you know, the Native American 
Voting Rights Act would establish the first of its kind Native American 
Voting Rights Task Force, provide equal access to voter registration 
and polling sites, address the devastating effects of the 2013 Shelby 
County v. Holder Supreme Court decision by restoring tribal 
preclearance, affording equal treatment of tribal IDs, requiring 
language assistance, furnishing federal election observers, and 
requiring the Department of Justice to conduct an annual voting 
consultation with Indian tribes.
    Few Senators have shown the devotion to voting rights, particularly 
the voting rights of Native Americans, that Senator Udall has 
demonstrated over the years. In 2015, NARF created the Native American 
Voting Rights Coalition, or NAVRC, a coalition of national and regional 
grassroots organizations, academics, and attorneys advocating for the 
equal access of Native Americans to the political process. It was 
founded to facilitate collaboration between its members on coordinated 
approaches to the many barriers that Native Americans face in 
registering to vote, casting their ballot, and having an equal voice in 
elections. Our first two actions were to conduct the largest ever 
survey of Native American voters and conduct a series of nine field 
hearings across Indian Country to identify barriers faced by Native 
American voters. This resulted in thousands of pages of hearing 
transcripts--evidence of voter suppression.
    Senator Udall immediately identified this issue and began to draft 
the Native American Voting Rights Act to address the common barriers we 
identified. In so doing, he heard the voices of all those who spoke up 
at the field hearing and brought them to a national stage. He heard 
them, and then did something about it. Senate Bill S. 739 was 
introduced by Senator Udall in 2019. This year, the Senator continued 
to pursue this issue by holding meetings and roundtables on the 
importance of the tribal vote and barriers to voting in rural 
communities; joining the John Lewis Voting Rights Advancement Act and 
adding Native-specific provisions to that as well; and just a few 
months ago he led an effort urging the Department of Justice to 
immediately address the mass closure of polling locations in Native 
communities. He has shown unfailing leadership for the voting rights of 
the most disenfranchised Americans and for that, the Native American 
Rights Fund will be forever grateful.
    The Native American Rights Fund represents the Ute Mountain Ute 
Tribe, the Hopi Tribe, and Zuni Pueblo in litigation challenging the 
President's diminishment of the Bears Ears National Monument in 
southeastern Utah in 2017. These ancestral lands of these tribes were 
protected as they requested when President Obama established the Bears 
Ears National Monument in 2016 with a provision that recognized co-
management of those lands by the tribes and the federal government. The 
tribes have sacred sites, former villages, burial grounds, and other 
cultural resources on these ancestral lands now owned by the federal 
government that they want to help protect with their traditional 
knowledge. We appreciate the support that Senator Udall and other 
members of this Committee have given to the tribal co-management 
concept.
    I want to conclude by thanking Senator Udall and other members of 
this Committee for their recognition and support of legislation that 
addressed the issue of missing and murdered Indigenous women. This is 
one of the most serious issues in Indian country. This Committee and 
the Congress is to be congratulated for passing the Not Invisible Act 
and Savanna's Act this year which finally address these important 
issues.

    The Chairman. Thank you, Director Echohawk.
    With that, I would turn to Senator Cantwell for the 
purposes of an opening statement.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this very important hearing on self-governance and 
sovereignty and the need to discuss in the next Congress how we 
continue to make progress on this. I hope that the issue of a 
Carcieri fix will also be discussed by some of our colleagues.
    I am a big supporter of self-governance and the progress 
our tribes have made on self-governance. We hear a lot from Ron 
Allen, who has been one of our key witnesses many times talking 
about how the Jamestown S'Klallam have continued to make 
progress.
    But having the ability to take land into trust for economic 
purposes, one of my first colleagues, Senator Inouye, as chair 
of this Committee, did phenomenal work on what now became the 
development of an alliance between the Port of Seattle and the 
Port of Tacoma, all enabled because the Puyallup Tribe was able 
to take land into trust, change the waterway and actually 
become the more dominant player in the Puget Sound area, all 
because we gave them the ability to take land into trust and 
negotiate with the city and the county in various ports. So I 
hope we will get to that issue.
    But if I could, on our departing colleague, the Vice 
Chairman of the Committee, I want to thank him for his work 
with you, Mr. Chairman, and the incredible focus that you both 
have brought to this Committee over the last few years. I want 
to thank Senator Udall, obviously, for his role in Savanna's 
Act, as the chairman, Mr. Echohawk, just brought up. The fact 
that for the State of Washington, we had the most, I think as a 
percentage, missing and murdered indigenous women, this was a 
very important priority for the Seattle Indian Health Corps. 
They did a report that basically gave national attention to the 
problem.
    I want to thank you for your work and your work with the 
Chairman on that important legislation.
    I also want to thank you for your work that you helped us 
on in passing the Spokane Settlement Resolution, which was a 
long-time inequity that existed for the Spokane Tribe in not 
being adequately compensated for a hydroelectric system and the 
taking of their lands. It was a pretty incredible moment 
working with my colleague, Representative McMorris Rodgers, 
when we went to the Spokane Tribe.
    There were actually a few people still alive that 
remembered the day that their land was taken and flooded, and 
the fact that they had to move. They were finally seeing a just 
compensation from the U.S. Government. It was a pretty big 
moment, and I thank you, and I thank you both for that.
    I also thank you for working on this issue of broadband and 
broadband deployment in Indian Country. I don't know what we 
can do working altogether in the future. But this has to be a 
big priority for us. So I thank you, Senator Udall, for your 
leadership in coming to me and getting me, from the commerce 
perspective, to be more engaged in working with you here on the 
Committee.
    And thank you for the Progress Act. Again, drawing it back 
to today's hearing, I know that not everybody in Indian Country 
thinks the same way about self-governance. But I do think that 
the more we empower tribes on these issues of capacity to do 
contract and ability to take matters to govern themselves, I 
think we are seeing phenomenal results.
    We are seeing phenomenal economic growth in Indian Country, 
and I think that is what we want to see. We want to see the 
economic stability of those individuals making their own self-
determination and us giving them the power and tools to do so.
    So thank you for the Progress Act, and thank you, Mr. 
Chairman, for the Progress Act.
    I guess that is a way of saying I hate to break up this 
team. But Senator Udall has made the decision. So I don't know 
what else we can do but to wish him well and thank him for his 
service. And thank you again, I think that was Mr. Echohawk 
speaking, thank you for mentioning Bears Ears. The preservation 
of sacred lands across our Nation is also a pretty important 
objective for the future. I thank everybody for paying 
attention to how important these specific lands are to the 
heritage and culture of the United States of America.
    I wish you the best. I wish you the best, the Senator from 
New Mexico, our Vice Chairman, thank you for understanding 
Indian Country and working so hard with our colleague, the 
Chair, Senator Hoeven.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. And thank you 
for all the bills you worked on in a bipartisan way, and helped 
pass a lot of bills. So thank you. We really appreciate it. You 
really did a lot.
    Senator Cantwell. Thank you.
    The Chairman. With that, let's turn to our witnesses. I am 
going to start with questions for Governor Vallo.
    In 2019, along with Vice Chairman Udall, and others 
introduced, including Senator Cantwell, the Progress for Indian 
Tribes Act. Earlier this year, that bill was signed into law. 
The Progress for Indian Tribes Act streamlined agency 
procedures, clarified the compacting process, and most 
importantly, provided for more tribes to exercise self-
governance and administer Federal programs.
    But my question, Governor Vallo, would be, while this bill 
was long overdue, and I echo Senator Cantwell's comments on it, 
can you explain how the Progress Act is a good example of 
increased self-determination for tribes, and any other thoughts 
you have on that issue about how we can do more?
    Mr. Vallo. Thank you, Mr. Chairman, for the question. We do 
appreciate the passage of the legislation.
    As you know, tribes are always looking to advance and take 
advantage of the opportunity, when it is available, to be self-
determined, in all areas. I believe we have worked together to 
inform and educate not only our Federal partners but others 
beyond the Federal system of these goals, these objectives of 
ours [indiscernible].
    I think that the opportunities that are presented here are 
significant. In fact, we now have an open door, so to speak, 
and I think it gives us the opportunity to really mobilize a 
much more streamlined process toward self-determination and 
self-governance. The Pueblo of Acoma has maintained plans for 
many, many years, various tribal councils have looked at these 
opportunities. We are realizing the fruits of our labor.
    What I do believe, however, is that we need to begin the 
process of engagement with the appropriate Federal agencies to 
ensure that they are aware of what these short and more 
importantly, the longer-range plans are for our respective 
tribal communities. I believe there is an opportunity for 
intertribal discussion to occur on this subject, because we are 
always learning from one another, and we have plenty of tribes 
in this Country who have set a high bar in the way self-
governance can be achieved.
    So we are always looking to those models. Any resources 
that can be filtered down to our tribe to continue this 
important work I think would also make a significant difference 
in not only the mobilizing, but also executing these processes 
and taking full advantage of opportunities presented in the 
Progress Act.
    The Chairman. Thank you.
    I would like to turn to Chief Francis. You referenced 
economic development in your comments, which I think is so 
important. Of course, that is something we worked on in S. 212, 
the Indian Community Economic Enhancement Act, or the ICEE Act. 
It does things like waive the requirement for Native community 
development financial institutions and without that match, that 
is clearly going to free up money for tribes. It takes other 
steps to really help with economic development in Indian 
Country, which I think is so important.
    So my question would be, do you believe bills like ICEE as 
well as the Vice Chairman's Native American Business Incubators 
bill represent good starts in helping to build tribal 
communities? And what other examples or what other tools do you 
think would be helpful?
    Mr. Francis. Thank you for the question, Senator. I think 
this is also a very important subject. In terms of tools, one, 
obviously, we are very supportive of the Act and appreciative 
of its passage. Any time we are looking to provide more tools 
in Indian Country for economic success, given the extreme 
challenges that we are faced with from the Department of 
Treasury reports in terms of disparities with access to 
financing, et cetera, to help build businesses within Indian 
Country.
    I would say a few things that, as we move forward, I think 
it is going to be critically important that tribal governments 
are given every tool possible in terms of access to financing 
and capital coming from geographical locations that are often 
challenged, challenges with broadband, a whole host of other 
things that we know exist within Indian Country.
    I will give two specific examples. The creation of 
opportunity zones, for example, those opportunity zones where 
the western governors did decide where those zones would be. 
Every tribal nation in Maine was left out of those geographical 
locations to be able to participate in that program.
    But more importantly, I think, when we look at things like 
the market tax credits and tribal set-asides in that area, if 
we look at the overall allocation of new market tax credits 
where often projects and development within Indian Country to 
promote jobs and all those things don't typically fall into 
that $200 million to $400 million range for a project, there 
are lots of $6 million, $10 million, $15 million, projects that 
just don't garner the attention in the open new market tax 
credit pool.
    So tribes are often left out. We have some experience with 
that at Penobscot, without new elder facilities, et cetera. So 
I think we have to take a long, hard look at programs with the 
new market tax credit, make sure there are set-asides that help 
disadvantaged communities where tribes can have access to 
those. So access to capital, access to the programs that are 
already out there, good programs that maybe unintentionally are 
just leaving Indian Country behind.
    The Chairman. Thank you, Chief.
    We will turn to Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    My grandfather, in a voting rights case, Levi Udall, wrote 
``To deny the right to vote is to do violence to the principles 
of freedom and equality.'' I wholeheartedly agree.
    Mr. Echohawk, the Native American Rights Fund has done 
excellent work highlighting the challenges that Native voters 
face at the polls. Most recently, NARF's report, Obstacles at 
Every Turn, Barriers to Political Participation Faced by Native 
American Voters, details testimony from over 120 witnesses 
about the difficulties they face when exercising their right to 
vote in Indian Country. That is why I introduced the Native 
American Voting Rights Act, to correct the decades-long 
suppression of the Native vote.
    It is more important than ever that we pass legislation to 
ensure that the voices of Native communities in New Mexico and 
across Indian Country are counted, not discounted.
    I also joined Senator Klobuchar in writing a letter to the 
Department of Justice outlining our serious concerns regarding 
the mass closures of polling locations in tribal communities 
due to the COVID-19 pandemic. We called for the DOJ to work 
with tribal governments to find solutions to ensure the Native 
vote is counted. Yet despite these challenges, data is showing 
a large increase in Native vote turnout for the 2020 election.
    John, what concerns has NARF or the Native American Voting 
Rights Coalition heard from tribal communities about the 2020 
election process?
    Mr. Echohawk. Thank you for the question, Senator Udall. 
Again, thank you for all your support of the Native American 
Voting Rights Act.
    Indian Country has come to understand that their right to 
vote is under attack. They have come to realize that that must 
be for some reason. Somebody doesn't want them to turn out. So 
that has really lit a fire under them. The enthusiasm in Native 
communities to turn out, why don't these people want us to 
vote, it is for that reason we are going to show up and vote. 
It may take extraordinary measures to do that, but our turnout 
in the 2020 election was phenomenal. It made a difference in 
some of these States.
    That is just the way our people are. We are resilient. We 
are determined. When we are attacked, we are going to resist 
and we are going to fight back.
    Senator Udall. John Echohawk, what can Congress do to 
ensure that every Native vote is counted and not discounted?
    Mr. Echohawk. We need the protections of the Native 
American Voting Rights Act, because our right to vote is always 
going to be under attack. There are people out there who do not 
want us to vote. They are going to continue their efforts of 
voter suppression. The Native American Voting Rights Act will 
provide more protections for our right to vote going into the 
future, so we won't have to face these issues again.
    Senator Udall. Thank you.
    Mr. Chairman, I would ask to enter NARF's report into the 
record.
    The Chairman. Without objection.
    Senator Udall. Governor Vallo, I would want to ask you 
about the indigenous-led conservation, coordination and co-
management with Federal public land managers. Millions of acres 
of Federal public land are tribal homelands, home to important 
cultural lands, caves, sacred sites and habitat for important 
plants and wildlife.
    I believe that it is time we rethink the way the Federal 
Government works with tribes. It is not only important for 
Federal land managers to work with tribes on land management 
planning and decisions, but it is also a fundamental aspect to 
upholding the Federal Government's trust and treaty 
responsibilities.
    We have a number of laws and processes that you mentioned 
in your testimony, like NHPA, the National Historic 
Preservation Act, and the Federal Land Policy and Management 
Act, that require consultation. But often, the Federal 
Government makes decisions beforehand and then attempts to 
consult on those decisions with the tribes instead of working 
on land use planning together and in the early part of the 
process.
    Governor, my question to you is, how can the Federal 
Government make consultation more meaningful, especially when 
dealing with sensitive areas like Chaco or Bears Ears, for 
example? Should we build on existing processes, move to a co-
management model, or something else? What do you recommend?
    Mr. Vallo. Thank you, Senator Udall, for that important 
question. Some of us have, Mr. Echohawk and the Chief, and me, 
spent a lot of time talking about this question. But it is an 
important one as we realize that the last four years have been 
quite a challenge in terms of the ways in which consultation, 
for example, between tribes and Federal agencies, especially in 
the areas of cultural resources and landscapes are concerned.
    Acoma is and has been very vocal on this issue. What we 
would like to see, Senator and members of the Committee, is 
that there be an examination conducted of the existing 
processes under Federal law. Clearly, within some of our 
agencies, where local resources and landscapes are concerned, 
the consultation process is very one-sided. Oftentimes we don't 
have the opportunity to participate in the very early stages of 
this process.
    What I am referring to here is the development of what that 
consultation process would look like [indiscernible]. It should 
involve considerations of timing, and also making very clear 
what the anticipated outcomes will be as it is [indiscernible] 
these consultations.
    We throw around the term ``meaningful'' so much these days, 
a meaningful consultation. Well, we are not there, we are 
definitely not there yet in terms of meaningful consultation. 
But it has to be meaningful commitment between the Federal 
Government and a tribe or tribes.
    That leads to the meaningful consultation that also then 
involves a process of active engagement [indiscernible] and 
ensuring that the outcomes of consultation do in fact yield 
positive outcomes, favorable outcomes for tribes as we continue 
this work on protection and preservation of our cultural 
resources. It is also then as co-stewards for the co-management 
piece of that on our minds.
    I think that is something that is I wholeheartedly support, 
an examination of the existing processes, and whether or not 
those processes for co-management can be enhanced to where 
tribes and perhaps tribal preservation officers, maybe tribal 
natural resource departments and management officials are 
engaged more intimately in that process of the co-management of 
the natural resources and land.
    We definitely [indiscernible] cultural resources and 
cultural landscapes are concerned [indiscernible] extending 
that to consider [indiscernible] and landscapes is something 
that we would definitely like to see.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Again, thank you, Mr. Chairman, for this 
hearing. Our witness brought up the fact that we needed a new 
market tax credit set-aside. We have also been working on the 
low-income housing tax credit program with an additional focus 
and set-aside for Indian Country for housing. I wonder if the 
witnesses could talk about the incredible opportunity there is 
on both of these, what that would mean as far as the broader 
impacts to the economy if we would use our tax credits more 
specifically this way in Indian Country, and what else we need 
to do to change that formula, so that either with a set-aside 
or in the case of the low-income housing tax credit increase 
that we have been trying to push on a Cantwell-Young bill, we 
have been trying to specifically call out Indian Country. I can 
see a lot of housing, very-needed housing being built in Indian 
Country with the low-income housing tax credit.
    So I don't know if any of the witnesses can speak to that.
    Mr. Francis. I can, really quickly. Thank you, Senator, for 
the question. In terms of low-income tax credit programs, at 
Penobscot we have accessed those programs in the past, and they 
have been hugely beneficial in terms of not only getting much 
needed housing shortages addressed for some of our most 
vulnerable populations, our elder group, et cetera. We just 
built a new facility last year in partnership with Maine State 
housing, utilizing a lot of these programs.
    And so just in terms of the overall theme of the hearing 
today in terms of recognizing sovereignty and all those things, 
it doesn't come without its hiccups in terms of, when we talk 
about a new market tax credit set-aside, for example. I think 
some of the biggest challenges we have is when investors come 
to the table, they want waivers of sovereign immunity. The 
tribe has to assess those opportunities and make sovereign 
decisions around those as we do with 638 contracts and a whole 
list of other things.
    But I think that financial institutions are not really 
educated a lot about tribal structures, tribal governments, 
tribal judicial systems, how we are rectifying grievances 
within outside financing opportunities, et cetera within tribal 
territories. So I think a new market tax credit, for example, 
the question of set-aside would be important, because it can be 
defined in a way that creates that understanding up front, and 
also a direct understanding of where these dollars are supposed 
to go and how they are supposed to benefit these disadvantaged 
communities.
    Senator Cantwell. How would you describe the lack of access 
to capital otherwise?
    Mr. Francis. Again, it is the same challenge, I think, out 
there. Tribes are often faced with challenges about things like 
simply providing collateral for loans and access to resources 
to satisfy financial institutions, just by the nature of tribal 
makeup. Obviously, banks can't repossess lands on tribal land, 
as an example, and other things. So I think a lot of those 
things create a lot of the misunderstanding in terms of how to 
get this done.
    One of the really good programs is the 184 program which 
really had set up a structure to allow for the people for the 
first time in our community over the last 10 years start to 
have a robust home ownership market within tribal territory, 
because of that program and the ability of tribes and others to 
be involved to make sure those loans are guaranteed.
    So I think when we talk about set-asides and new market tax 
credit, or low-income housing or whatever it is, specifically 
for Indian tribes, that is not just about wanting some special 
program out there. It is a program within those set-asides that 
can really address the uniqueness of the challenges and 
obstacles there that tribes are facing.
    Senator Cantwell. I think our legislation was an 30 
percent, an additional 30 percent from where we are. My point 
was, when you think about the crisis that exists in Indian 
Country housing, it is pretty massive. The other changes that 
you have for funding mechanisms I see are more limited.
    Anyway, I think this is an area we need to think more about 
the value of this. I think it is pretty high. I think it is a 
good return, particularly for the economic development that 
comes with housing. I would certainly say with the new market 
tax credit we have seen tremendous benefits to the economic 
development that comes with it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. We will turn to 
Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman, and thank 
you all for this important discussion.
    Before we get started, I apologize, I was on the Floor of 
the Senate, so I wasn't able to be here for your opening 
statements. So I too want to take a minute to recognize and 
thank Vice Chairman Udall for his years of leadership on this 
Committee, and for his commitment and service to our tribal 
communities. It has been an honor to serve with you on this 
Committee the past four years.
    I want to thank you for your advice, your wisdom, your 
mentorship, and the example that you have set for us through 
your many years in Congress, in the Senate and on this 
Committee. I also want to thank your staff for their dedication 
in supporting this Committee's work. The tireless leadership in 
working across the aisle, not just with Chairman Hoeven, but so 
many members of the Committee, and our tribal leaders. You have 
encouraged all of us truly to work together in a bipartisan 
way. I thank you for that.
    I am particularly thankful for your leadership and your 
help in passing the Not Invisible Act and Savanna's Act that we 
have heard about today, so important for our tribal 
communities. But your achievements in the Senate stand as a 
testament to the spirit of the west.
    And as a western State, I so appreciate your voice, and 
your commitment to our communities in the west, from conserving 
and protecting our public lands to the Great American Outdoors 
Act, a champion for the rights of Indian Country, from 
empowering our tribal communities to introducing what we have 
just been talking about, the Native American Voting Rights Act, 
holding our Federal agencies accountable and ensuring vital 
Coronavirus relief funds and safe care delivery reach those who 
need it most during this horrific pandemic.
    So whether it is through finding creative solutions, to try 
and address the homework gap, to partnering with me on 
introducing the E-Rate support for school bus wi-fi, or 
fighting for quality housing, as we were talking about, through 
reauthorization of the Native American Housing Assistance and 
Self-Determination Act, your work here has led to tangible 
benefits for Native communities in my home State of Nevada and 
all across the Country.
    So Senator Udall, I have no doubt that your legacy of 
service here will continue to make a powerful impact on many of 
our tribal communities for years to come. I am going to miss 
you, my friend. But I look forward to the opportunity to work 
with you in the future and do things with you as well. So thank 
you for your commitment.
    As we move on to the subject at hand, which is self-
governance, tribal consultation that is so necessary for 
Federal agencies, we have talked about a number of issues that 
clearly need attention for our tribal communities. One of them, 
though, I do want to address as well. President Francis, I am 
going to direct this question to you, because in your 
testimony, you shared the importance of the 2013 reforms to the 
Violence Against Women Act that allowed tribes to prosecute 
certain domestic violence related crimes.
    I wonder if you could share with us on how beneficial this 
has been to the tribes, that it has been able to help them 
implement special jurisdiction, and what it has meant for the 
safety of the Native women in those communities.
    Mr. Francis. Sure. Thank you for that important question as 
well. The Violence Against Women Act is, in my mind, one of the 
most historic acts that Congress has passed addressing a 
horrific condition within Indian Country. Certainly, my tribe 
is no less impacted by it than everyone else's. Those same 
statistics ring true with us as they do with everyone else.
    As I also talked about in my testimony, we live under a 
land claims settlement act here that allows for challenges to 
our jurisdiction by the State of Maine in almost every aspect 
of our life. We were lucky that this past year we were able to 
implement some provisions of VAWA. We had a really robust 
domestic violence and sexual assault program and department 
with great people. What we found was that we had, at a certain 
time we would have hundreds of people we were servicing, but 
yet those services and those victims weren't lining up with 
things moving through the judicial process.
    So what we were learning, prior to the implementation of 
VAWA, was that victims, quite frankly, would either not trust 
the system outside of the tribal system, or they were delayed 
so long in kind of the rank and file process of a bigger State 
court or Federal court that they would often be a year or two 
years from that trauma and simply not want to relive it again. 
Therefore, people are just not being held accountable.
    So this act was extremely important, as with tribal law and 
order, a whole host of other acts that this Committee has 
supported. The mind set of local control is really the only way 
to address these issues in a positive and impactful way. So for 
the women of our tribe and for the women all across Indian 
Country, this has been an extremely impactful, and I will speak 
for our region, extremely impactful at that was passed, and 
created a situation of trust and also of this kind of 
assumption by tribal governments that they had no control over 
this issue when it was existing right under our nose. So it has 
provided for a lot of success in that area, and a lot of 
victims are better off for it today and we have been able to, 
more importantly, prevent more of that from happening.
    Senator Cortez Masto. That is great to hear.
    My time is up, so I will submit these questions for the 
record. I am also curious as to what other improvements we can 
make in this area for tribal governance when it comes to 
addressing domestic violence issues in our tribal communities.
    Thank you for this conversation.
    The Chairman. Thank you, Senator Cortez Masto.
    Now we will turn to Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you, Chair Hoeven. I too was on the 
Floor of the Senate just a little while ago at the beginning of 
this Committee to listen to our colleague Doug Jones' farewell 
speech. So I am sorry I missed the beginning of this hearing.
    Senator Udall, I just want to add my huge thanks to you. 
You know that I grew up in New Mexico, I was born in New 
Mexico. In fact, you've had a chance to meet my father, who 
still lives in Santa Fe. In fact, my father graduated from the 
University of New Mexico probably about 20 years before you 
did. I didn't realize that you had that connection as well.
    When I was growing up, I came from a politically active 
family. The Udall name was truly political royalty in New 
Mexico and all of the west. So when I discovered that I was 
going to have the opportunity to serve with you in the United 
States Senate, and especially to serve with you on the Indian 
Affairs Committee, it has meant so much to me. It has great 
resonance in my life and in my passion for environmental issues 
and tribal justice issues now, as I have the blessing of 
representing the great State of Minnesota.
    So I am just so grateful for all of your work and time. I 
know that we will continue to be friends for many years to 
come. I will look forward to seeing you and Jill at the Shack 
in Santa Fe when I am there visiting my father again and when 
we can be out and be with our loved ones again. Thank you so 
much for your service. I am so grateful.
    I want to also thank our testifiers here today, Governor 
Vallo, Chief Francis, and John Echohawk from the Native 
American Rights Fund. I would like to tell you what I am 
interested in hearing your perspective on. It relates to the 
importance of teaching accurate Native history and culture in 
our schools, especially in K through 12 education.
    When I was growing up in Santa Fe, I remember vividly in 
elementary school learning about the history of New Mexico, and 
the long history of Native people in New Mexico, and also the 
Hispanic culture in New Mexico, long before white people came 
to that State. So my knowledge of that from when I was just a 
little child has, I believe, always shaped my understanding of 
the deep, rich history of this Country, especially as it 
relates to Native people.
    So I am very interested in knowing what your perspective is 
on how better we can do this in our schools. I think this ties 
directly to the importance of consultation, and tribal 
consultation, as we figure out how well to do this. I am 
working on a bill that has really been inspired by some of the 
work of the Shakopee and Wahpeton Sioux community in Minnesota 
to develop curriculum to teach about Native American history 
and culture. This bill would support educators as they are 
teaching accurate history and culture in classrooms across the 
Country and figuring out how to also make that specific.
    Could I just turn to you and ask you a little bit about 
what you think we should be doing in this area and why you 
think this matter? I am interested in hearing from all of you.
    Mr. Vallo. Thank you for the question, Senator. It is an 
important question and one that we have a very proactive 
interest in addressing here in the State of New Mexico.
    We have had some challenges in terms of having the 
opportunity to really consult on a meaningful level with the 
State department of education on the assessment of this 
component of history, New Mexico history, and how these 
accurate histories become introduced into the instruction at 
all levels, really, not only for the general population of our 
students but also for all Native American students, and 
expanding the instruction for them as well beyond history, but 
also integrating and seeing a true integration of cultural 
instruction within our public school systems and also our local 
schools, in the schools that we have the opportunity to manage 
on our own.
    We have provided the State with plenty of guidance, I 
believe. I am not only speaking for Acoma; I am speaking for 
the tribes here in New Mexico. We have worked together as a 
body to bring those issues before our State department of 
education. We have made some progress, I believe, in some 
areas, especially where the introduction of language is now 
available for Native students within some of our school 
systems. But there is so much more to do.
    [Indiscernible] issues that we are [indiscernible] in New 
Mexico is bring some closure to impact aid and how those 
Federal impact aid dollars generated by Native students filters 
down to the school districts, those districts who have a 
population that is generating these dollars. Unfortunately, we 
have not had a great relationship with the State in addressing 
and really bringing some closure and understanding to this 
issue. But here is a resource, a resource that is available to 
really enhance the cultural instruction and education, not only 
for our Native students, but for the general population.
    So I feel like we are still in that discussion mode and 
really taking a broad look at things. I hope that with 
continued support of the Native American Languages Act, and the 
Esther Martinez Act, what we are finding is that there is a 
little trickle-down from these programs that are being 
administered in schools now that is impacting cultural 
education for our students.
    Senator Smith. Mr. Chair, I have another question, but I 
will follow up with our other guests today, because I am very 
interested in getting their input on this piece of legislation 
and working on it. Thank you very much.
    The Chairman. Thank you, Senator Smith.
    With that, we will turn to Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
the folks who testified today. I too was on the Floor listening 
to Senator Jones' farewell speech. It was good, and I want to 
spend a little bit of my time talking about another Senator 
that is going to be leaving this body, unfortunately, and that 
is Senator Udall. Senator Udall is somebody that, quite 
frankly, has not only been a great Senator, but has been an 
incredible friend to many of the Native Americans across this 
Country.
    Having been on leadership of this Committee, I can tell you 
from my perspective, Senator Udall has never missed a beat when 
it comes to making sure that things like sovereignty and trust 
responsibilities and self-determination, that we do our best to 
live up to those things when it comes to Native Americans. 
There are a lot of folk who serve with the United States Senate 
that don't understand trust responsibility and that trust 
relationship. You can't say that about Senator Udall. Senator 
Udall fully understands it and fights for it every day that he 
is here.
    I know that it drives him crazy when I refer to him as the 
Jimmy Stewart of the U.S. Senate. But the truth is, if you 
listen to him talk, and use your imagination a little bit, he 
is a dead ringer for Jimmy Stewart. In fact, I think that if 
you were able to work on your imitation a little better, we 
might be able to get a recreation of It's A Wonderful Life from 
you, Senator Udall.
    [Laughter.]
    Senator Tester. I just want to say, in this path that we 
live called life, and our path crosses with wonderful people 
and we get a chance to work with them, whether it is inside the 
Senate or outside the Senate, it doesn't matter. Those folks 
tend to go a different path than we are on.
    Well, for the last eight years, Senator Udall and I have 
had the chance to serve together in the United States Senate. I 
know you come from a great lineage of public servants, Tom. 
Your dad, Stuart Udall, was one of the finest, there is no 
doubt about that. He is, as Senator Smith said, truly legendary 
across the western United States.
    But the truth is, you filled his shoes very, very well. You 
are somebody that is going to missed not only in the Indian 
Affairs Committee, I serve with you on Appropriations, and I 
know you are Ranking Member and Chair, which also deals with 
many issues that deal with Native Americans. You have been a 
marvelous friend and person that I can joke with and have some 
fun with on all the committees that we serve together, 
Appropriations and Indian Affairs for sure.
    I just want to say we wish you and Jill the very, very best 
as you carve out another path in life. I will just be blunt: I 
hope the Administration picks you for Interior. I think you are 
a great human being for that. I think you understand the 
issues. Quite frankly, I think you are somebody that would 
serve the Administration very, very well as being a clear 
thinker with common sense.
    So I just wanted to throw that out there. We are going to 
miss you, Tom, my friend. But hopefully you will not be a 
stranger to the United States Senate.
    I have one quick question. I have more than one, but one 
quick question that has come up, and it is for Kirk. It is 
about access to capital in Indian Country. You talked about 
collateral not being there, you talked about the 184 programs. 
Are there any solutions we need to do, particularly, I want to 
talk about for business startups, when it comes to access to 
capital in Indian Country? Do you have any ideas that we can 
work on and get a bill together and maybe name it the Tom Udall 
Bill for Economic Development in Indian Country?
    Mr. Francis. Yes, certainly, thank you for that question, 
Senator. It is good to see you.
    I think there are a lot of specific things we could do. I 
think I would like to take some time to work with my colleagues 
at USET, to work with the Committee on exactly what that would 
look like. But I think even though we have these programs out 
there, like the BIA loan guarantee program, for example, there 
is a lot of different information out there that we can draw 
from to try to create a program that really puts financial 
institutions' not only minds at ease, but incentivizes them to 
invest in Indian Country.
    I think those are the important things, as we need to 
figure out a way to get financial institutions to look at 
Indian Country and to look at the territories within Indian 
Country as a solution around a whole host of things rather than 
an encumbrance or a burden.
    So I think a strong bill developed with those kinds of 
guarantees and incentives for tribes and incentives for 
businesses would be the way to go. We would be more than happy 
to work with you on that in short order.
    Senator Tester. Well, I just want to say this, and I will 
put the rest of my questions in for the record. I also serve on 
the Banking Committee. There are a lot of folks, at least in my 
State, that serve in the financial industries that want to get 
out there to Indian Country. But as you said, they want to make 
sure they know the rules before they get there.
    So I look forward to working with you, and I know there are 
others on this Committee that would, too, on trying to find 
some solutions to access to capital. Because I think it is a 
big inhibitor in Indian Country.
    Thank you all for being here. Once again, thanks for being 
with us here, Senator Udall. I yield.
    The Chairman. Thank you, Senator Tester. I would turn to 
Vice Chairman Udall for some additional questions.
    Senator Udall. Thank you, Mr. Chairman. I would like to 
follow up with a final question for all the panel. It focuses 
around President Francis, that your testimony discussed a 
Marshall Plan for Indian Country in order to rebuild and 
restore tribal infrastructure.
    I have long fought to increase vital infrastructure funding 
in Indian Country and in Native communities. Too often they 
lack basic infrastructure, such as clean drinking water, roads, 
health care facilities, electricity grids, and broadband. Even 
before my time with this Committee, I had urged support for a 
Marshall Plan for Indian Country.
    While I am proud of the work I have done with my colleagues 
on this Committee and on the Appropriations Committee to 
increase infrastructure investments in Indian Country, I 
recognize there is much more that needs to be done.
    This question is for the entire panel, but let me start 
with Chief Francis. What priorities should be addressed in an 
Indian Country Marshall Plan?
    Mr. Francis. Thank you, Senator, and again, I appreciate 
the very important question.
    USET SPF has been talking about trust modernization and the 
concept of a Marshall Plan, et cetera, for a few years now. 
This is really focused on nation rebuilding. So it is hard to 
give one answer in terms of what the most important thing is 
because the past actions and policies that are responsible for 
the current situation within the governments and communities, a 
Marshall Plan for Indian Country would seek to rectify all of 
that.
    This would include funding for governmental and judicial 
infrastructure, historic preservation, economic infrastructure, 
health care infrastructure, all those things would have to be 
assessed. Essentially everything that is needed to begin this 
nation rebuilding stage decades from being in the self-
governance era.
    So we understand that this is not going to happen 
overnight. We all know that. But there needs to be a plan 
developed that has meaningful progress over the next decade or 
so that really focuses on what are the systematic damages 
within Indian Country, and being able to quantify all that 
stuff and really put it into a comprehensive plan that focuses 
on what does the number look like.
    That is the other thing. I think the other important part 
of this question too in terms of, how do you get to a number 
and all of that. We looked at, for example, this situation over 
at OMB. We have to do a much better job of tracking exactly how 
well the trust obligation to Indian tribes is being met and 
what is the starting line, the actual detailed accurate 
starting line.
    So we would recommend things initially in development of 
this plan like an Indian Office of OMB that can really drill 
down in better detail exactly what is getting to Indian 
Country. We know that OMB touts that $21 billion is 
appropriated for Indian Country annually.
    None of us believes that $21 billion is getting out to 
Indian Country. We think this is what is available, and it 
looks eligible to be in Indian Country. But even if we took 
that $21 billion number, for example, that is one-tenth of 1 
percent of the annual value that the United States receives on 
Federal lands and the natural resources on them.
    So there is a lot that would go into developing this plan. 
I have appreciated your willingness to have this conversation. 
There are pieces that need to be put in place to start 
addressing this and to develop a comprehensive plan over the 
coming years that really gets at reparations within Indian 
Country to allow for continued success and rebuilding of tribal 
nations.
    Senator Udall. John Echohawk, any thoughts on Indian 
Country Marshall Plan?
    Mr. Echohawk. Yes, Senator Udall. As you know, the United 
Nations passed the Declaration of Rights of Indigenous Peoples 
in 2007, after nearly 40 years of work by indigenous people 
from around the world, it was [indiscernible] over in Geneva. 
It is a wonderful document that recognizes everything that 
Native nations want and need, and are their inherent rights. 
But we still need the implementation of that declaration across 
the board.
    If that was implemented, that would be a Marshall Plan. The 
Obama Administration got the United States to support the 
declaration in 2010, and it has not been fully implemented. 
Recognition of that, the National Congress of American Indians 
passed a resolution at their convention here last month 
recommending to the new Biden-Harris Administration that they 
establish a commission to study the full implementation of the 
Declaration of the Rights of Indigenous Peoples by the United 
States government. If that commission was formed, it started 
working on everything this Country needs to do to implement 
that declaration, that would constitute in my view a Marshall 
Plan that would bring back Indian Country to the position that 
it deserves to be in, based on its inherent rights.
    Senator Udall. Thank you.
    Governor Vallo, any thoughts on a Marshall Plan for Indian 
Country, an Acoma perspective there?
    Mr. Vallo. Thank you, Senator. I would just say that this 
pandemic and the experience that we are all having is certainly 
bringing to light again for us the need for development of 
[indiscernible] but the communities, certainly here in Acoma. I 
would fully support this initiative and I thank you for raising 
this. If there is more data now that is available 
[indiscernible] we should be again looking at this 
comprehensive initiative, and perhaps a commission as described 
by Mr. Echohawk for evaluation of the Declaration. In addition 
to the Declaration, there might be a similar process for 
addressing this effort and the creation of a Marshall Plan that 
is all inclusive and very comprehensive.
    Senator Udall. Thank you, Mr. Chairman, and thank you to 
all of our witnesses today. I think this was an excellent 
hearing. I really want to say thanks again for the very kind 
words of all the members on the Committee. It has been a real 
honor to work with them, and work with tribes to make sure we 
have brought justice to some of the important issues, as you 
know, that we face and the tribes face in Indian Country.
    Thank you very much.
    The Chairman. I would like to thank our witnesses for 
today. The hearing record will be open for two weeks, and if 
there are additional questions submitted for the record, we 
would ask that you try to respond within that two-week 
timeline.
    So thanks to our witnesses. To Vice Chairman Udall, I 
thought all of the well wishes and the compliments that you 
received from our Committee members today were extremely 
appropriate.
    I think I particularly liked Senator Tester's Jimmy 
Stewart, Mr. Smith Goes to Washington. I hadn't necessarily 
thought of that, but once he said it, I think he is right. I 
mean that in a really complimentary way.
    I think we really have worked to be bipartisan here. We 
have moved a lot of bills. We are still trying to outline some 
more.
    I want to add, again, my appreciation to the appreciation 
that the other Committee members provided today for the way you 
have approached the work of this Committee and for your 
commitment to Indian Country. Thank you so much.
    And with that, we are adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    Mr. Chairman,
    Although I am unable to stay, I don't want to leave without 
expressing my deep appreciation to Vice-Chairman Udall. Today's hearing 
in the Senate Committee on Indian Affairs is our last hearing of the 
year, and it will mark the last hearing that we will have with Senator 
Udall as our Vice-Chair.
    I'd like to take a few moments to thank Senator Udall for all he 
has done for tribes and native communities across the nation, and 
especially for his work on behalf of Native Hawaiians. Thank you Tom- 
for your leadership and your friendship.
    This Committee has always held a distinct position in the Senate. 
The legal and policy issues we grapple with as we try to honor our 
promises and lift up American Indian, Alaska Native and Native Hawaiian 
communities are unique and yet universal. There is great diversity 
among the indigenous groups of our nation and oftentimes significant 
differences among tribes and native communities located in the same 
state. Almost every issue requires us to try to understand a myriad of 
historical, cultural, legal, and economic issues as well as to take 
into account distinct factual considerations. Balancing competing 
interests is never easy, but Senator Udall, you have exemplified what 
it means to be a leader. I have appreciated the thoughtful and 
inclusive way that you approach policymaking, and the deep sense of 
fairness that informs you words and actions.
    You have helped to maintain and build upon the strong tradition of 
bipartisanship associated with the Senate Committee on Indian Affairs. 
Thank you for serving so well this committee, our members, our 
constituents, and all native communities in Indian country, Alaska and 
Hawaii. At this time I ask that letters of appreciation to Senator 
Udall written by Native Hawaiian organizations be included in the 
hearing record. I would also ask for testimony provided by the Office 
of Hawaiian Affairs on today's hearing, as well as documents prepared 
by the Office of Hawaiian Affairs and other Native Hawaiian 
organizations for Senator Udall and SCIA during the 116th Congress, be 
inserted at the end of my statement.
    Finally, today I want to join my other colleagues in congratulating 
you on a well-deserved retirement after twelve remarkable years of 
service in the Senate. You have built an exemplary record of 
accomplishment through your work on this committee, the impacts of 
which have been felt all over Indian country, Alaska and Hawaii, and 
will continue to be felt for generations to come.
    My best to you always, Tom. I know we haven't seen the last of you 
yet, and I can't wait to see what you do next.
                                 ______
                                 
Prepared Statement of the State of Hawai'i, Office of Hawaiian Affairs 
                                 (OHA)
    Dear Chairman Hoeven, Vice Chairman Udall, and Members of the 
Senate Committee on Indian Affairs:
    Mahalo nui loa (Thank you very much) for your leadership in the 
116th Congress. The Office of Hawaiian Affairs (OHA) appreciates the 
opportunity to provide testimony for the record of the December 9, 
2020, Oversight Hearing on ``From Languages to Homelands: Advancing 
Tribal Self-Governance and Cultural Sovereignty for Future 
Generations.'' This hearing topic provides a valuable forum to discuss 
the importance of self-determination to all Native American people, 
including American Indians, Alaska Natives, and Native Hawaiians.
    Self-determination--the right of Indigenous people to chart our own 
course--supports the cultural sovereignty of the Native Hawaiian people 
and advances the mission of OHA to better the conditions of the Native 
Hawaiian community. The federal government owes a trust responsibility 
to all Native American people that it carries out through the self-
determination framework. We thank the U.S. Senate Committee on Indian 
Affairs for its work to ensure the rights of all Native people, 
including Native Hawaiians, are protected. We urge the Committee to 
continue to include the Native Hawaiian community in its work to meet 
this obligation in its consultation policies and legislative proposals, 
including but not limited to the areas of culture and languages; 
climate change; health care and the federal response to the Novel 
Coronavirus Disease (COVID-19) pandemic; and preventing and stopping 
violence against women and children and child sexual exploitation.
Background on OHA and Its Standing to Represent Native Hawaiians
    Established by our state's Constitution, \1\ OHA is a semi-
autonomous agency of the State of Hawai'i mandated to better the 
conditions of Native Hawaiians. Guided by a board of nine publicly 
elected trustees, all of whom are Native Hawaiian, OHA fulfills its 
mandate through advocacy, research, community engagement, land 
management, and the funding of community programs.
---------------------------------------------------------------------------
    \1\ Haw. Const., art. XII,  5 (1978).
---------------------------------------------------------------------------
    Hawai'i state law recognizes ORA as the principal public agency in 
the state responsible for the performance, development, and 
coordination of programs and activities relating to Native Hawaiians. 
\2\ Furthermore, state law directs OHA to advocate on behalf of Native 
Hawaiians; \3\ to advise and inform federal officials about Native 
Hawaiian programs; and to coordinate federal activities relating to 
Native Hawaiians. \4\
---------------------------------------------------------------------------
    \2\ Haw. Rev. Stat.  10-3(3).
    \3\ Haw. Rev. Stat.   10-3(4).
    \4\ Haw. Rev. Stat.   10-6(a)(4).
---------------------------------------------------------------------------
Trust Responsibility Owed to All Native Americans
    Native Hawaiians are owed the same trust responsibility as any 
other Native American group. To meet this obligation, the federal 
government has created policies to promote education, health, housing, 
and a variety of other federal programs that support self-
determination. Similar to many American Indians and Alaska Natives, 
Native Hawaiians have never relinquished our right to self-
determination despite the United States' involvement in the illegal 
overthrow of Queen Lili'uokalani in 1893; the subsequent dismantling of 
our government; and the repeated attempts to erase our culture. In 
fact, Congress has consistently acknowledged or recognized Native 
Hawaiians as the Indigenous people of Hawai'i by establishing a special 
political and trust relationship through over 150 laws. Some notable 
legislation include the Hawaiian Homes Commission Act, 1920 (42 Stat. 
108) (1921), the Native Hawaiian Education Act (20 U.S.C.   7511) 
(1988), the Native Hawaiian Health Care Improvement Act (42 U.S.C.   
11701) (1988), and the Hawaiian Homelands Homeownership Act codified in 
the Native American Housing Assistance and Self Determination Act, 
Title VIII (25 U.S.C.   4221) (2000).
    As Congress holds the plenary power to exercise its duties to 
regulate Indian Affairs, it is Congress who decides how and to whom 
that special relationship is owed. Through enacted laws to implement 
the trust responsibility to Native Hawaiians, Congress has explicitly 
acknowledged that the grounds for these programs are rooted in the 
status of Native Hawaiians as an Indigenous, once-sovereign people. 
Moreover, whenever possible, Congress extends to Native Hawaiians the 
rights and privileges accorded to American Indians and Alaska Natives. 
Some examples where Native Hawaiians are included alongside American 
Indians and Alaska Natives are the Native American Graves Protection 
and Repatriation Act (25 U.S.C.   3001), the Native American Programs 
Act of 1974 (42 U.S.C.   2991), the Older Americans Act of 1965 (42 
U.S.C.   3001), and the Native American Tourism and Improving Visitor 
Experience (NATIVE) Act (25 U.S.C.   4351). Since Congress has clearly 
established a special relationship to Native Hawaiians, this Committee 
holds the jurisdiction to ensure that the federal government implements 
the trust responsibility fully and equally to all Native Americans, 
including American Indians, Alaska Natives, and Native Hawaiians.
    As we close the 116th Congress, we thank you for your work to 
uphold the trust obligations owed to all Native Americans, and we look 
forward to the 117 th Congress as an opportunity to renew the federal 
government's commitment to honoring this trust responsibility.
Consultation Policies as Part of the Foundation of Self-Determination 
        Policies
    One of the most critical safeguards of Native American self-
determination today is the mandatory federal consultation policy. Under 
Executive Order 13175 of November 6, 2000, and subsequent memoranda 
from the George W. Bush and Barack Obama Administrations, the U.S. 
Government recognizes the right to sovereignty and self-determination 
of this country's Native people. While this is a step in the right 
direction, the omission ofNative Hawaiians from the federal 
consultation requirements has unduly stifled the Native Hawaiian 
community's voice in federal projects for the past two decades.
    Ensuring Native Hawaiians are informed of proposed actions and have 
an open line of communication with all federal agencies undertaking 
actions that would impact our people, culture, and sacred sites will 
help to correct this country's historical wrongs against our people. 
Consulting with organizations that serve the Native Hawaiian community, 
including OHA, the Department of Hawaiian Home Lands, Papa Ola Lokahi, 
and the Native Hawaiian Health Care Systems, among others, would allow 
Native Hawaiians to access this basic tenet of self- determination-
having a meaningful say in our own governance.
    With that in mind, we urge this Committee to pass legislation in 
the 117th Congress to codify the federal consultation mandate of 
Executive Order 13175 and to extend these rights to all Native 
Americans, including Native Hawaiians.
Culture-Based Education and Indigenous Language Programs Lead to 
        Better Outcomes
    The self-determination framework supports the reclamation and 
revitalization of Native identity through culture-based education and 
language programs. Evidence supports that programs providing Native 
Hawaiian students an opportunity to learn in their own culture and 
language lead to better academic outcomes. The successes of the Native 
Hawaiian education movement are understood throughout the community.
    In 2011, Ms. Namaka Rawlins of Aha Piinana Leo, a renowned 'Olelo 
Hawai'i (Hawaiian language) immersion preschool and the oldest Native 
American language immersion non-profit in the United States, testified 
before the Committee about the successes of the preschool and the 
language immersion movement generally. At the time, Ka Haka 'Ula o 
Ke'elikolani at the University of Hawai'i at Hilo offered the only 
Ph.D. in the world that focused solely on Native language and culture 
revitalization. This Hawaiian language college provides various levels 
of education, including a laboratory school for Kindergarten through 
12th Grade. At the time, the Hawaiian immersion laboratory school had a 
100 percent high school graduation rate and an 80 percent college 
entrance rate. These rates remained steady for more than ten years, 
supporting that culture-based education and Indigenous language 
programs are reliably and overwhelmingly successful.
    Culture-based education in the classroom leads to positive results 
on students' socio-emotional development. At the same hearing, Dr. 
Shawn Kana'iaupuni testified on behalf of Kamehameha Schools that 
culture-based education instructs students on values, norms, knowledge, 
beliefs, practices, and language; this approach to education is 
successful in addressing educational disparities facing Indigenous 
students.
    In the years that followed the 1893 illegal overthrow of the 
Hawaiian Kingdom, the Territory of Hawai'i's government--whose 
legislative structure and executive were dictated by the U.S. federal 
government-banned the speaking of Native Hawaiian language in schools 
and legislative proceedings at the expense of Native Hawaiian language, 
culture, and traditional practices. Although 'Olelo Hawai'i was at risk 
of extinction as a result of these oppressive assimilationist policies, 
the Native Hawaiian community has worked to reclaim its identity, 
culture, and language. In the past five years, enrollment in Hawai'i's 
public immersion schools increased by 40 percent and in public charter 
schools by 21 percent. \5\ Despite this increase, immersion teaching 
positions remain unfilled. \6\ Thus, we urge the Committee to support 
the diverse ecosystem of culture-based education, including Native 
Hawaiian language immersion programs, Hawaiian-focused charters 
schools, and among other things, distance learning opportunities for 
those Native Hawaiians who have been forced out of their homelands due 
to the economic burdens ofliving in Hawai'i. Additionally, we request 
the Committee consider new opportunities to foster the education and 
training of future teachers of 'Olelo Hawai'i.
---------------------------------------------------------------------------
    \5\ Sue von Lee, Building A Hawaiian Language Curriculum Classroom 
By Classroom, Honolulu Civil Beat (Feb. 24, 2020),  https://
www.civilbeat.org/2020/02/building-a-hawaiian-language-curriculum-
classroom-by-classroom/.
    \6\ Id.
---------------------------------------------------------------------------
Maintaining Cultural Perspectives in Climate Change Responses
    Climate change presents a threat to self-determination by impeding 
on the safety of the Native Hawaiian community, limiting resources, and 
restricting the community's ability to maintain traditional practices. 
The consequences of climate change disproportionately affect Native 
Americans across the United States and exacerbates existing challenges 
to health and welfare within Indigenous communities . In fact, Hawai' i 
is already preparing for sea level rise, shore erosion, and increased 
natural disasters as the result of climate change. \7\
---------------------------------------------------------------------------
    \7\ See, e.g., HAWAI'I CLIMATE CHANGE MITIGATION AND ADAPTATION 
COMMISSION, HAWAI'I SEA LEVEL RISE VULNERABILITY AND ADAPTATION REPORT 
(2017), https://climateadaptation.hawaii.gov/wp-contentfuploads/2018/
0l/SLR-Report--January-2018.pdf.
---------------------------------------------------------------------------
    Sea level rise has already had devastating impacts on our 
ecosystems. We are experiencing saltwater intrusion into our lo'i kalo 
(Hawaiian taro fields) and changes to the delicate balance of fresh 
water and sea water in our loko i'a (Hawaiian fishponds) and other 
coastal areas favorable for delicate resources like limu 'ele'ele and 
huluhuluwaena (edible seaweeds). \8\ As a result, some Native Hawaiian 
families have abandoned their lo'i kalo since taro cannot grow in salt 
water. At the same time, coastal resources-like edible seaweeds--are 
struggling to survive the changing environment and other opportunistic 
species.
---------------------------------------------------------------------------
    \8\ See generally Statement of Assistant Professor Malia Akutagawa 
before the U.S. Senate Committee on Indian Affairs (July 19, 2012), 
https://www.indian.senate.gov/sites/default/files/upload/files/Malia-
Akutagawa-testimony0719l2.pdf.
---------------------------------------------------------------------------
    Sacred burial areas are also threatened by rising sea levels and 
related coastal erosion. \9\ There are well over 10,000 or more known 
or suspected burials situated along the coastlines of Hawai'i. As the 
coastlines erode, the iwi kupuna (ancestral bones) are exposed or 
washed away. The uncovering of ancient burial sites has even led to 
some individuals removing these remains from their burial sites for 
personal collections.
---------------------------------------------------------------------------
    \9\ Haunani H. Kane et al., Vulnerability Assessment of Hawai'i's 
Cultural Assets Attributable to Erosion Using Shoreline Trend Analysis 
Techniques, J. OF COASTAL RESEARCH (May 2012).
---------------------------------------------------------------------------
    Beyond these impacts to the culture and traditions of the Native 
Hawaiian community, Hawai'i is one of only two states in the nation to 
experience a local Dengue Fever outbreak in the past five years. \10\ 
Vector-borne diseases, particularly those transmitted by mosquitoes, 
are thriving as average temperatures in Hawai'i increase. \11\ Not only 
do these diseases affect the people of Hawai'i, they also place the 
population of already endangered, endemic birds at further risk of 
extinction. \12\ These birds hold special cultural significance for the 
Native Hawaiian community, and their extinction would prevent Native 
Hawaiians from continuing certain traditional practices. \13\ Beyond 
disease, Hawai'i is already preparing for sea level rise, shore 
erosion, and increased natural disasters as the result of climate 
change. \14\
---------------------------------------------------------------------------
    \10\ Dengue in the US States and Territories, CDC (Oct. 7, 2020), 
https://www.cdc.gov/dengue/areaswithrisk/in-the-us.html.
    \11\ Hawai'i's Changing Climate Bri(!fing Sheet, 2010, UNIV. OF 
HAW. SEA GRANT (2010), https://www.soest.hawaii.edu/coasts/
publications/ClimateBrief_low.pdf.
    \12\  Claire Caulfield, Is Climate Change Affecting the Spread of 
Disease?, HONOLULU CIVIL BEAT (Mar. 23, 2020), https://
www.civilbeat.org/2020/03/is-climate-change-affecting-the-spread-of-
disease/ ; Brittany Lyte, .Deadly Mosquitoes are Killing off Hawai'i's 
Rare Forest Bird, HONOLULU CIVIL BEAT (Dec. 10, 2019), https://
www.civiibeat.org/2019/12/deadly-mosquitoes-are-killing-off-hawaiis-
rare-forest-birds/.
    \13\ Ashlyn Ku'uleialoha Weaver, 'I'iwi in Hawaiian Culture, Maui 
Forest Bird Recovery Project, https://mauiforeslbirds.org/cultural-
significance/ (last accessed Dec. 17, 2020).
    \14\ See. e.g., HAWAJ'I CLIMAT E CHANGBMITIGATION AND ADAPTATION 
COMMISSION, HAWAI'I SEA LEVEL RISE VULNERABILITY AND ADAPTATION REPORT 
(2017), https://climateadaptation.hawaii.gov/wp-content/uploads/2018/
0I/SLR-Report--January-2018.pdf.
---------------------------------------------------------------------------
    Since these consequences directly impact the Native Hawaiian 
people, we must ensure that Native Hawaiian voices are included in 
discussions around climate change mitigation and adaptation. The Native 
Hawaiian community has the right to self-determination when deciding 
how it responds to the effects of climate change. The Native Hawaiian 
community is uniquely equipped to address climate change because of the 
community's historic stewardship over the islands and its resources. 
Traditional Native Hawaiian society relied on the ahupua'a system--
which divided swathes of land beginning in the mountains and moving 
down to the shoreline--and loko i'a for sustainable resource 
management. Today, Native Hawaiian organizations and OHA are 
revitalizing these practices.
    The federal government must work with the Native Hawaiian community 
to ensure Native conservation and agricultural practices are utilized 
to mitigate the effects of climate change. With this in mind, OHA 
requests a specially-designated seat on any federal climate change 
advisory committees or management groups. OHA already holds a similar 
position as a co-manager for Papahanaumokuakea Marine National 
Monument, a partnership which has successfully infused the unique 
Native Hawaiian perspective into federal resource management and 
policy. Beyond this role, OHA requests additional federal programs to 
support food security; disaster preparedness, mitigation, and recovery; 
and future Native Hawaiian science, technology, education, and math 
(STEM) professionals. The self-determination framework for Native 
Hawaiians would allow us to make food readily available and prevent 
permanent harm when disasters strike. Equally important, Native 
Hawaiians can achieve greater self-determination by developing more 
STEM professionals from within the community to fuse together both 
traditional and scientific knowledge.
The Impact of the Pandemic Upon the Health and Welfare of 
        Native Communities
    Like our Native relatives on the continental United States, Native 
Hawaiians face disproportionate threats to our physical and mental 
health, including poverty, \15\ suicide and depression, \16\ infant 
mortality, \17\ alcohol abuse, \18\ homelessness, \19\ and prejudices 
against Natives. Native Hawaiian infants are twice as likely to die 
(infant mortality rate of 7.9 per 1,000 live births) than their White 
peers (infant mortality rate of 3.5 per 1,000 live births) in the State 
of Hawai'i. \20\ Native Hawaiians are more likely to suffer from 
coronary heart disease, diabetes, and asthma than non-Native Hawaiians 
in the State. \21\ Nearly 16,000 Native Hawaiians suffer from diabetes 
and more than 36,000 suffer from asthma. \22\ These diseases are the 
result of many factors such as social determinants like housing. 
Indeed, many Native Hawaiians face homelessness-making up nearly half 
of the homeless population on the island of O ahu, \23\ whose 
population accounts for approximately two thirds of the State's total 
population.
---------------------------------------------------------------------------
    \15\ Anita Hofschneider, Poverty Persists Among Hawaiians Despite 
Low Unemployment, HONOLULU CIVIL BEAT (Sept. 19, 2018), https://
www.civilbeat.org/2018/09/poverty-persist-among-hawaiians-despite-low-
unemployment/. 
    \16\ NATIVE HAWAIIAN MENTAL HEALTH AND SUICIDE, OFFICE OF HAWAIIAN 
AFFAIRS (Feb. 2018), http://www.ohadatabook.com/HTH--Suicide.pdf.
    \17\ Ashley H. Hirai et al., Excess Infant Mortality Among Native 
Hawaiians: Identifying Determinants for Preventive Action, AM. J. OF 
PUB. HEALTH (Nov. 2013), https://www.ncbi.nlm.nih.gov/pmc/articles/
PMC3828695/pdf/AJPH.2013.301294.pdf.
    \18\ NATIVE HAWAIIAN HEALTH STATUS, OFFICE OF HAWAIIAN AFFAIRS 22 
(July 2019), http://www.ohadatabook.com/NHHS.html.
    \19\ ISSUE BRlEF: COVID-19 AND NATIVE HAWAIIAN COMMUNITIES, NATIVE 
HAWAIIANS OVER-REPRESENTED IN COVID-19 AT-RISK POPULATIONS, OFFICE OF 
HAWAIIAN AFFAIRS 2 (2020).
    \20\ Hirai, supra note 17.
    \21\ ISSUE BRlEF: COVID-19 AND NATIVE HAWAIIAN COMMUNITIES, NATIVE 
HAWAIIANS OVER-REPRESENTED IN COVID-19 AT-RISK POPULATIONS, OFFICE OF 
HAWAIIAN AFFAIRS 1 (2020).
    \22\ Id. at 1 092.
    \23\ Id. at 2.
---------------------------------------------------------------------------
    Mental health is also a serious concern for the Native Hawaiian 
community. More than twenty percent of Native Hawaiian adults repo1ted 
that they frequently feel their mental health is ``not good.'' \24\ 
Although Native Hawaiians make up only 27 percent of all youth in the 
State between the ages of ten and 14, they constitute 50 percent of the 
completed suicides. \25\ These factors contribute to the fact that 
Native Hawaiians, despite being the Indigenous peoples of the Hawaiian 
Islands have the shortest life expectancy of any major population in 
the State. \26\
---------------------------------------------------------------------------
    \24\ NATIVE HAWAIIAN MENTAL HEALTH AND SUICIDE, OFFICE OF HAWAIIAN 
AFFAIRS (Feb. 2018), http://www.ohadatabook.com/HTH_Suicide.pdf.
    \25\ David M.K.I. Liu & Christian K. Alameda , Social Determinants 
of Health for Native Hawaiian Children and Adolescents, HAW. MED. J. 
(Nov. 2011), https://www.ncbi.nlm.nih.gov/pmc/articles/PMC32S4224/pdf/
hmj70ll_suppl2_0009.pdf.
    \26\ ISSUE BRIEF: COVID-19 AND NATIVE HAWAIIAN COMMUNITIES, NATIVE 
HAWAIIANS OVER-REPRESENTED IN COVID-19 AT-RISK POPULATIONS, OFFICE OF 
HAWAIIAN AFFAIRS 2 (2020).
---------------------------------------------------------------------------
    Recently, the COVID-19 pandemic has exacerbated and will further 
widen the health disparities Native Hawaiians face. Unemployment in 
Hawai'i has skyrocketed and recovery efforts continue to lag, with the 
U.S. Bureau of Labor Statistics reporting that as of October 2020 
Hawai'i had the highest unemployment rate at 14.3 percent. \27\ We do 
not expect unemployment to lower significantly in the foreseeable 
future because one of our biggest industries--tourism--is almost 
completely shut down and many small businesses have permanently closed 
as a result. Our economy will likely not begin to see growth again 
until after the final stages of the COVID-19 pandemic recovery. The 
State ofHawai'i expects a $1.4 billion budget shortfall in the general 
fund for each of the next four years. As a result, Hawai'i Governor 
David Y. Ige has implemented cost- reduction measures including the 
furlough of State employees for two days a month beginning in January 
2020. \28\ Native Hawaiians will continue to be disproportionately 
affected by the economic standing of the State and its major industries 
because nearly one in four Native Hawaiians are employed in the service 
industry closely tied to tourism in Hawai'i. \29\
---------------------------------------------------------------------------
    \27\ U.S. BUREAU OF LABOR STATISTICS, State Employment and 
Unemployment Summary--October 2020, https://www.bis.gov/news.release/
Jaus.nrO.htm.
    \28\ Governor's Office--News Release--Gov. Ige Announces Furloughs 
for State Employees Starting January 1, OFFICE OF THE GOVERNOR (Dec. 9, 
2020), https://govemor.hawaii.gov/newsroom/govemors-office-news-
release-gov-ige-announces-furloughs-for-state-employees-starting-
january-1/.
    \29\ ISSUE BRIEF: COVID-19 AND NATIVE HAWAIIAN COMMUNITIES, NATIVE 
HAWAIIANS OVER-REPRESENTED IN COVID-19 AT-RISK POPULATIONS, OFFICE OF 
HAWAIIAN AFFAIRS 3 (2020).
---------------------------------------------------------------------------
    In conversations with Native Hawaiian-serving organizations, OHA 
learned of ongoing struggles to meet even basic community needs as a 
direct result of the pandemic and the subsequent economic crisis. 
Native Hawaiian educators and service providers have faced steep 
challenges in continuing to offer effective cultural programming to 
nurture our keiki (children) due to the lack ofkupuna (elder) and keiki 
care options for staff. Even worse, some Native Hawaiian communities 
have reported that food security has become a major problem with the 
closing of schools and thus unavailability of school lunches. While we 
hear heartwarming stories about communities coming together to ensure 
that no one is left to starve, without additional federal support, this 
pandemic threatens the continued health, safety, and well-being of the 
Native Hawaiian community.
    We urge this Committee to ensure that Native Hawaiian programs and 
service providers are included in all future federal COVID-19 relief 
efforts.
Preventing and Stopping Violence Against Our Mothers, Sisters, and 
        Children
    Another essential aspect of self-determination and self-governance 
is the safety and welfare of individuals. While the Native Hawaiian 
community does not possess a distinct area of law enforcement 
jurisdiction, the issue of violence against our mothers, sisters, and 
children nevertheless affects our people. Recent reports in Hawai'i 
have shown that Native Hawaiians are disproportionately affected by sex 
trafficking. One study in particular found that in a survey of sex 
trafficking survivors, 64 percent identified as being Native Hawaiian. 
\30\ Further, in numerous meetings with service providers and advocacy 
organizations, OHA was informed that child pornography and sex 
trafficking targeting Native Hawaiian children under the age of 12 is a 
particularly troubling crisis in the State of Hawai'i. Similarly, OHA, 
along with its partners the Lili'uokalani Trust, the Kamehameha 
Schools' Strategy & Transformation Group, and the Domestic Violence 
Action Center, recently issued a report raising awareness of the 
vulnerabilities and potential impacts of the COVID-19 pandemic on 
Native Hawaiians experiencing or at-risk of intimate partner violence. 
\31\ Notably, we reported that in 2013, 13.4 percent of Native Hawaiian 
adults report experiencing physical or sexual abuse by an intimate 
partner, compared to 10.2 percent non-Hawaiian adults and 10.6 percent 
of the total State of Hawai'i adult population. \32\ Moreover, this 
form of violence is too often underreported and more is needed to 
empower survivors to come forward.
---------------------------------------------------------------------------
    \30\ See, e.g. SEX TRAFFICKING IN HAWAI'I, PART III SEX TRAFFICKING 
EXPERIENCES ACROSS HAWAl'I (2020), https://humanservices.hawaii.gov/wp-
content/uploads/2020/02/ST-in-Hawai%E2%80%98i-Executive-Summary-
January-2020-FINAL092.pdf.
    \31\ NATIVE HAWAIIANS AT-R!SKOF INTIMATE PARTNER VIOLENCE DURING 
COVID-19 (2020), https://sites.google.com/ksbe.edu/nh-covid19/intimate-
partner-violence?authuser=0.
    \32\ Id.
---------------------------------------------------------------------------
    We commend this Committee on its work to protect Native women 
through the passage of the Not Invisible Act and Savanna's Act into law 
earlier this year. These two bills address the issue of Missing and 
Murdered Indigenous Women (MMIW) by creating an advisory committee on 
violent crime to make recommendations and provide best practices and by 
creating new guidelines for responding to MMIW cases and incentivizing 
their implementation. As you continue this important work next 
Congress, we urge you to include Native Hawaiians in your efforts to 
end violence against all Native women and children. Our wahine (women) 
and keiki are seeking justice and access to resources to restore their 
safety.
    Finally, as the 116th Congress draws to a close, we wish to express 
our appreciation and gratitude--our mahalo--for you both as Chair and 
Vice Chairman of the Committee. It has been an honor to work with two 
leaders dedicated to honoring the United States' trust obligations. 
Vice Chairman Udall, as you near your retirement, OHA especially thanks 
you for your steadfast support of the Native Hawaiian community, and we 
would like to thank you for your leadership and work in ensuring the 
passage of the Esther Martinez Native American Languages Programs 
Reauthorization Act this Congress. OHA wishes you the best ofluck in 
your future endeavors. We look forward to continuing our work with the 
Committee.
                                 ______
                                 
             Ke Kula'o Samuel Kamakau Public Charter School
                                               Keaomalamala
                                      University of Hawai'i
                                                       KALO
                                            'AHA PUNANA LEO
                                KA HAKA 'ULA O KE'ELIKOLANI
                                                Kahuawaiola
                                                   December 9, 2020
Hon. Tom Udall
Vice Chairman,
U.S. Senate Committee on Indian Affairs,
Hart Senate Office Building,
Washington DC.

Dear Vice Chairman Udall:

    We send you our warmest of aloha from our homeland to you at the 
close of an illustrious tenure in service to your home communities in 
New Mexico and other Native communities across this country. We have 
watched your work to preserve the sovereign right of indigenous peoples 
to access and safeguard indigenous lands. The Sandia Pueblo Act ensured 
that the Sandia Mountain Wilderness and Cibola National Forest would be 
held in trust for the Pueblo. Along with a long record of support to 
protect the environment from hazardous waste dumping and other harmful 
actions, we are grateful for the strength of your voice in ensuring 
that our mother earth can thrive for generations to come.
    We have also heard you champion on numerous occasions the rights of 
our peoples to communicate, value, believe, and be Native. Under your 
leadership, the Esther Martinez Native American Languages Preservation 
Act was successfully reauthorized and indigenous language programs 
flourished. Your continued commitment to uphold laws like the Esther 
Martinez Act and to appropriate funds to ensure that these public 
policies are financially supported has allowed so many indigenous 
communities to revitalize and renormalize the heart of their 
identities- Native language. In addition, your work to support Native 
American small businesses also ensure that indigenous peoples across 
the country can become entrepreneurs and innovators in their own 
homelands. Many young Natives can utilize Native ideas, practices, and 
others not only to earn a living but also to contribute to their home 
communities.
    Your leadership has supported the continued revival and growth of 
Native language and culture across all Native American communities, 
including American Indians, Alaska Natives, and Native Hawaiians. 
'Olelo Hawai'i (the Native Hawaiian language) and Native Hawaiian 
education are included among those successes. In pre- and post-contact 
society, Native Hawaiian cultural practitioners passed down traditional 
practices orally through 'Olelo Hawai'i. Native Hawaiian society and 
the Kingdom of Hawai`i valued education for its people. In addition to 
the oral cultural education passed down through generations, 'Olelo 
Hawai'i became a written language and was the medium in schools 
established by the Kingdom of Hawai'i. In the 1800s, over 250 Hawaiian 
language medium schools were in operation. Almost all Native Hawaiians 
were literate, and the Kingdom boasted one of the highest literacy 
rates in the world.
    The overthrow of the Hawaiian Kingdom and United States' 
participation in the overthrow changed the trajectory of 'Olelo Hawai'i 
and Native Hawaiian education. During the territorial period, American-
run schools banned the speaking of 'Olelo Hawai'i on campuses. The 
federal government also enforced a policy of assimilation upon the 
Native Hawaiian people similar to those forced upon American Indian and 
Alaska Native communities during that same era. Studies report these 
policies led to a sense of inadequacy and self-disparagement among 
Native Hawaiians. By the 1960s, 'Olelo Hawai'i was near extinction. 
Only 2,000 speakers remained in the 1980s. However, around that time, 
the Hawaiian Renaissance began to take hold and Native Hawaiian leaders 
worked tirelessly to revive Native Hawaiian traditional practices and 
'Olelo Hawai'i.
    In 1983, Native Hawaiian leaders and community members created 
Punana Leo, a Native Hawaiian immersion preschool. The first group of 
students educated entirely in 'Olelo Hawai'i graduated from high school 
in 1999. Their success was the direct result of continued advocacy from 
the families involved with the immersion school movement. Hawaiian-
medium education has grown exponentially since those early days, and it 
is now possible to receive an education in 'Olelo Hawai'i from 
preschool through doctoral program. Students can receive an education 
in 'Olelo Hawai'i in immersion programs, Hawaiian-focused public 
charter schools, and distance learning, among other options. These 
programs not only revitalized Native Hawaiian traditional practices and 
'Olelo Hawai'i, but they also continue to offer students a sense of 
connectedness and place through this education system. Your leadership 
has made the continued success of these invaluable programs possible.
    We applaud your unwavering pledge to improve the health and 
wellbeing of Native communities. From water rights to nutrition 
improvement, you have steadfastly advocated for improvements to health 
care, housing, and agriculture for the Pueblos and the wider indigenous 
populations in the United States. Your ability to work with others in 
the spirit of bipartisanship has benefited all Natives; Congress and 
others are now much more aware of the long history of inequality and 
injustice committed against Native peoples in this country.
    At the eve of your departure from Congress, we send our deepest 
gratitude, thanks, and humble applause for your work to advance Native 
language, health and wellbeing, and identity.
                                 ______
                                 
                                          December 21, 2020
Hon. Tom Udall
Vice Chairman,
U.S. Senate Committee on Indian Affairs,
Hart Senate Office Building,
Washington DC.

Dear Vice Chairman Udall:

    We are a group of Native Hawaiian organizations that provide 
health, educational, cultural, community development, and other 
services to the Native Hawaiian community. On behalf of our 
organizations and the community we serve, we write to you to share 
information about the importance of 'Olelo Hawai'i (Native Hawaiian 
language) in the Native Hawaiian community and to express our deep 
gratitude for your decades of support for the Native Hawaiian community 
and our culture during your leadership in the United States House of 
Representatives and Senate.
    A traditional Native Hawaiian proverb states: ``I ka `olelo no ke 
ola; I ka `olelo no ka make.'' In our language rests life; In our 
language rests death. This adage holds true for many Native 
communities. In a May 26, 2011, oversight hearing on Native languages 
held by the U.S. Senate Committee on Indian Affairs, Ms. Namaka Rawlins 
from `Aha Punana Leo testified that Native languages are crucial to 
ceremonial life, spirituality, kinship practices, and overall 
indigenous identity. This is especially true for the Native Hawaiian 
people. 'Olelo Hawai'i has always been a critical facet of our culture 
and traditions. Prior to the overthrow of the Kingdom of Hawai`i, 
'Olelo Hawai'i flourished in both spoken and written forms. The 
citizens of the Kingdom of Hawai'i valued education, and the Kingdom 
enjoyed among the highest literacy rates in the world. Following the 
overthrow, a law banned Native Hawaiian language from schools. As a 
result of this action, coupled with other policies implemented over the 
years, fluent speakers of 'Olelo Hawai'i dwindled to just 2,000 by the 
1980s. Like many other Native American languages, 'Olelo Hawai'i faced 
the risk of extinction as the result of assimilation policies from the 
U.S. Government. Fortunately, 'Olelo Hawai'i did not join the over 125 
Native American languages that became extinct. Instead, through the 
dedicated efforts of Native language advocates, the community created 
Native Hawaiian language immersion preschools. Further initiatives 
expanded immersion programs into public schools during that time.
    Today, students can choose to complete their studies in a range of 
disciplines from preschool through Ph.D. completely taught in 'Olelo 
Hawai'i. This is possible because of the tireless efforts of many 
people, including the United States Congress. In 1974, Congress passed 
the Native American Programs Act to create the Administration for 
Native Americans, which administers the grants authorized by the Esther 
Martinez Native American Languages Preservation Act. For decades, these 
grants have provided critical support for language revitalization 
across diverse Native communities.
    You have been instrumental in ensuring this critical support 
continues through your leadership in legislative action around language 
bills such as the Esther Martinez Native American Languages Programs 
Reauthorization Act, as well as your work in the areas of education, 
health care, cultural sovereignty, and self-determination. We have 
enjoyed partnering with you and your staff to ensure that all 
indigenous youth, including young Native Hawaiians, are educated in 
their language and culture; that all Native Americans receive 
culturally competent health care; and that Native communities and 
Native-owned businesses have the resources they need to thrive. We 
recognize the importance and value of your strong voice on these 
issues. Your legislative accomplishments among many other achievements, 
have been critical to the preservation and perpetuation of the Native 
Hawaiian language and culture for future generations.
    Native American language learners and advocates, as well as all 
Native American communities and especially the Native Hawaiian 
community, owe many of the advances we see in Native American languages 
to your leadership. During your tenure, you served to ensure the 
federal government honored its trust and treaty obligations to all 
Native Americans, including American Indians, Alaska Natives, and 
Native Hawaiians. We are thankful for your inclusion of Native 
Hawaiians alongside American Indians and Alaska Natives in your 
tireless advocacy on behalf of Indian Country.
    As you continue to the next chapter of your life, we hope that you 
will continue to keep the Native Hawaiian community in mind. Since we 
hope to see you again, we wish you a fond a hui hou (until we meet 
again) instead of saying goodbye. Mahalo again for your friendship.

        `O makou no me ka ha'aha'a,

    ALU LIKE
    Association of Hawaiian Civic Clubs
    Bishop Museum
    Boys & Girls Club of Hawaii
    Ho'ola Lahui Hawai'i
    Hui Malama Ola Na 'Oiwi
    Hui No Ke Ola Pono
    INPEACE
    Kamehameha Schools
    Ke Ola Mamo
    Kua'aina Ulu 'Auamo
    Malama 'Aina Foundation
    Na Pu'uwai
    Office of Hawaiian Affairs
    Papa Ola Lokahi
    Partners in Development Foundation
    The Queen's Health Systems
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to Hon. Kirk Francis
    Question 1. Why is passing the Violence Against Women (VAWA) Act 
and other reforms and improvements to the 2013 special domestic 
violence criminal jurisdiction, such as the Justice for Native 
Survivors of Sexual Violence Act and the Native Youth and Tribal 
Officer Protection Act, so important to Native communities?
    Answer. As you are likely aware, Indian Country currently faces 
some of the highest rates of crime, with Tribal citizens 2.5 times more 
likely to become victims of violent crime and Native women, in 
particular, subject to higher rates of domestic violence and abuse. 
Many of the perpetrators of these crimes are non-Native people. A 
primary reason for increased crime in Indian Country is the gap in 
jurisdiction stemming from the United States' failure to recognize our 
inherent criminal jurisdiction, allowing those who seek to do harm to 
hide in the darkness away from justice. When Tribal Nations are barred 
from prosecuting offenders and the federal government fails in the 
execution of its obligations, criminals are free to offend over and 
over again.
    The public safety crisis continues in Indian Country, a crisis that 
is directly attributable, at least in part, to U.S. policies of 
colonialism, termination, and assimilation, as well as the chronic 
failure to deliver upon the trust responsibility and obligations. The 
Senate must set partisanship aside and act to provide parity to Tribal 
Nations in the exercise of our inherent sovereign rights and 
authorities. While we ultimately seek the restoration of full criminal 
jurisdiction over our lands, the expansion of special domestic violence 
criminal jurisdiction and increased resources represent important 
advancements toward that goal.

    Question 2. Can you elaborate on how the federal government can 
work with native communities and leaders to be a better partner in the 
tribal consultation process and ensure that federal agencies are being 
as inclusive as possible in ensuring that tribal communities have a 
seat at the table and continue to be included throughout the process?
    Answer. Broadly, the U.S. must work to reform the Tribal 
consultation process, as conducted by agencies across the federal 
government. Tribal Nations continue to experience inconsistencies in 
consultation policies, the violation of consultation policies, and mere 
notification of federal action as opposed to a solicitation of input. 
Letters are not consultation. Teleconferences are not consultation. 
Providing the opportunity for Tribal Nations to offer guidance and then 
failing to honor that guidance is not consultation. Meaningful 
consultation, at the earliest stages of the federal decisionmaking 
process, is a minimal standard for evaluating efforts to engage Tribal 
Nations. To this end, USET SPF supports consultation requirements for 
all federal departments and agencies, including independent agencies 
and the Executive Office of President, with the opportunity for legal 
remedy, should these policies be violated. It is also our position that 
all federal employees receive education on the history of U.S.-Tribal 
Nation relations and the federal trust obligation.
    Ultimately, free, prior, and informed Tribal consent, as described 
in the U.N. Declaration on the Rights of Indigenous Peoples, is 
required to fulfill federal treaty and trust responsibilities. The 
determination of what level of consultation is required should come 
from Tribal Nations. Meaningful consultation requires that dialogue 
with Tribal partners occur with a goal of reaching consent.

    Question 3. Do you have any recommendations on how to better 
improve tribal consultation for the near future, given the context of 
the limitations imposed by COVID-19?
    Answer. USET SPF would suggest utilizing zoom or similar virtual 
meetings to conduct face-to-face Tribal consultation at both national 
and regional levels. This should be reinforced with adequate written 
comment periods for those unable to attend or without adequate access 
to broadband. Virtual consultation also affords the federal government 
the opportunity to address previous logistical issues (travel, costs, 
time restrictions, etc.) preventing true consultation, which is one-on-
one Nation-to-Nation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Brian D. Vallo
    Question 1. As you noted in your testimony, Native languages 
contain entire worldviews--they are the glue that hold communities 
together. That's why we must do all that we can to live up to the 
federal policies set out in the Native American Languages Act of 1990. 
To that end, Senator Murkowski and I introduced the Durbin Feeling 
Native American Languages Act of 2020 in October. This bill recognizes 
the contributions of Cherokee linguist and Vietnam veteran Durbin 
Feeling, who recently passed on and aims to hold the federal government 
accountable and improve targeting of federal resources for Native 
American languages. Your testimony expresses support for this new bill. 
Do you agree that this bill would be an important complement to the 
Esther Martinez Act and other previously enacted laws aimed at 
supporting Native languages?
    Answer. Yes; the Durbin Feeling bill would be a valuable asset in 
helping tribal nations manage and promote the transmission of Native 
languages across generations. There is currently no routine collection 
of information on the status of Native language learning and usage. 
This gap makes it difficult for tribal leaders and federal agencies to 
target funds and resources where they are most needed. It also enables 
our already endangered languages to slip further into vulnerability or 
even extinction without any meaningful opportunity for intervention. 
The Durbin Feeling bill fills this gap. Even more importantly, however, 
is the fact that it would do so in a culturally sensitive manner that 
is driven by tribal leaders. With this new information, we will be able 
to make better informed decisions about how to best structure language 
nests and language restoration programs funded under the Esther 
Martinez Act. It will also help the Administration for Native Americans 
develop new grant opportunities to address specific needs identified 
using Durbin Feeling data, as well as ensure that existing programs are 
optimally operating. Data drives and complements each of these 
opportunities, and the Durbin Feeling bill would make that data 
possible.

    Question 1a. Do you believe that conducting regular, periodic 
surveys of Native language communities to ascertain if their needs are 
being met by federal programs?
    Answer. Yes; I believe that regular surveys of Native language 
communities are needed to ascertain whether federal programs are 
effectively addressing needs in this area. Data is the rock upon which 
informed decisions are made across all fields--whether it be in 
science, healthcare, business planning, or education. Language 
instruction and transmission is no different. We must have information 
on its vitality in order to ensure that it can thrive. What would be 
key to Native language surveys--and what is appropriately address in 
the Durbin Feeling bill--is that they be driven by the Native language 
communities themselves. This is essential to respecting the cultural 
sensitivity of our linguistic heritage. One which, as you and I both 
noted, contains entire worldviews, spiritual teachings, and 
understandings of social networks. It would not be appropriate for a 
federal official to lead surveys involving such intimate and protected 
information. It is appropriate, however, for federal officials to use 
information gathered with direct and leading tribal input to ensure 
that federal programs are effectively meeting tribal needs in this 
area. Doing so would be akin to a type of cultural repatriation as our 
linguistic heritage is one that has been actively, and often violently, 
suppressed by the federal government and its private partners in the 
past. Supporting the full blossoming of federal programs and resources 
available to support Native language communities through regular, 
periodic surveys driven by the communities themselves would be right 
and just.

    Question 1b. Do you believe that a regular, periodic survey of 
Native language communities like that proposed in the Durbin Feeling 
bill help ensure federal programs are meeting the needs of a more 
diverse set of Native language communities, including communities with 
lower numbers of remaining speakers?
    Answer. Yes; I believe that the regular surveys contemplated under 
the Durbin Feeling bill would benefit Native language communities of 
all sizes and linguistic capacities, including those with lower numbers 
of remaining speakers. Today, some tribal nations have a robust 
population of fluent speakers while others have only a handful of 
conversant members and still others have no speakers left at all. These 
differences are not to be laid at the feet of the tribal nations 
themselves. The effects of colonialism, diaspora, generational shifts, 
loss of homelands, and socio-economic factors have all contributed--and 
continue to contribute--to the myriad statuses of Native languages in 
different tribal communities today. What all of our communities need, 
regardless of current size and capacities, is information. Information 
will help us at all stages of Native language transmission (i.e., in 
deepening community fluency, building out existing programs, and 
strategizing on how to revive severely endangered and unspoken 
languages). The broad reach of the Durbin Feeling bill's survey mandate 
will benefit all of our communities.

    Question 1c. Why do you think it is an important feature of any 
survey of Native languages to ensure Tribes and Native language 
communities will be in the driver's seat when it comes to collecting 
information about Native languages?
    Answer. Building off of my responses to the sub-questions above, 
which are also all directly relevant to this issue, it is important for 
tribal nations and leaders to lead the survey process where our Native 
languages are involved because of the central importance of our 
linguistic heritage to our past and present identities as indigenous 
peoples. Only we know what information is appropriate to collect and 
how, have the trust of tribal members who are holders of linguistic 
knowledge, know how to present the data to our federal partners for 
broader purposes in program evaluation and support, and, perhaps most 
importantly, are sovereigns who should and must be in the driver's seat 
regarding any effort involving our internal affairs. We would welcome 
the opportunity to partner with our federal allies in carrying out the 
Durbin Feeling bill's survey mandate, but it must be from a place of 
deference to tribal nations.

    Question 2. I worked with other members of this Committee to 
introduce the Indian Programs Advance Appropriations Act and the Indian 
Health Service Advance Appropriations Act to try to bring greater 
budgetary certainty to Indian Country. But, I recognize that advance 
appropriations is just one step Congress could take to address this 
problem. Would reforming the federal budget process through more 
meaningful Tribal consultation and input help achieve more budget 
certainty for Tribes?
    Answer. Yes; any opportunity for tribal leaders to provide input at 
the front end of federal decisionmaking processes is one that will 
contribute to more budget certainty for tribal nations in both the 
short- and long-term. While tribal leaders do have formal mechanisms 
for contributing to the budget formulation process, such as through the 
Tribal Interior Budget Council and Congress's Public Witness days, 
these are few and far between. Programs serving tribal communities 
exist across the federal spectrum and as such there should be direct, 
meaningful tribal consultation happening across the federal spectrum as 
well. Unfortunately, as this Committee well knows, that is simply not 
the case, currently.

    Question 2a. How could we work to amplify Tribal voices in the 
budget and appropriations processes?
    Answer. Amplifying the voices of tribal leaders in the budget and 
appropriations process first requires giving tribal leaders a platform 
on which to speak. We know our communities, we are involved in regional 
tribal cooperation, and we support national priorities that implicate 
our shared sovereignty and interests. We are, thus, an invaluable 
resource to the Administration, Congress, and federal agencies where 
decisions related to federal funding levels and allocations are at 
issue. Yet, we largely remain untapped for information despite our 
direct, vocal desire to assist. How can these missed connections be 
realigned? One way, I believe, is to set up tribal budget council 
within each federal department that would provide specific 
recommendations on the appropriate funding levels, priorities, and new 
program needs for those programs under the jurisdiction of the 
department and its sub-agencies serving tribal communities. This could 
be modeled on the Tribal Interior Budget Council, which meets on a 
quarterly basis. Tribal leaders would then have the chance to actively 
contribute to the formulation of the annual budget--we would be help to 
shape, not merely react, to its content. Such widespread proactive 
involvement in the federal budget and appropriations processes at the 
agency level is currently missing and one that would be invaluable to 
fill.
    Further, at the other end of the appropriations process, I think 
that appropriations language allowing for maximum flexibility in the 
use of federal dollars for programs, grants, pilot projects, etc. 
serving tribal communities would also amplify tribal voices by 
empowering local and regional decisionmaking. The use of single 
distribution methodologies is often ineffectual because a one-size-
fits-all approach is simply unworkable in Indian Country. As noted 
above, the size and internal capacities of tribal communities varies 
widely from coast to coast. Our general needs are commonly shared, but 
the best allocation of each federal dollar to meet those needs will be 
distinct in each community. Appropriating federal dollars serving 
tribal communities with a clause allowing for the maximum flexibility 
to use those dollars to address a targeted area or initiative would 
respect tribal sovereignty and give tribal leaders a concrete platform 
on which to participate in allocating the funds resulting from the 
federal budget and appropriations processes.

    Question 3. As collection and reliance on data grows in our 
society, especially through federal law and programs, it is more 
important than ever to ensure that Tribal sovereignty over Tribal data 
is respected. And that includes ensuring that Tribes are able to access 
certain federal databases. Whether it's accessing criminal databases to 
address the MMIW crisis, or public health databases to track COVlD-19 
activity, Tribes are encountering far too many barriers getting the 
information they need--as governments--to protect their communities. 
How has lack of access to federal databases impacted your Tribe and 
Indian Country as a whole?
    Answer. As you note in the introduction to this question, lack of 
access to accurate and up-to-date data creates myriad harmful 
challenges for tribal nations. For the Pueblo of Acoma, lack of access 
to federal databases has created more work and uncertainty for our 
staff in responding to the COVID-19 pandemic. We face hurdles in 
staying current on the types and quantities of PPE and medical supplies 
available in our area, as well as in coordinating community response 
efforts due to the lack of direct access to certain contact tracing and 
exposure data. We often had to patch together information provided to 
us from the Indian Health Service, State health officials, other 
federal agencies, our Pueblo sisters, and national tribal organizations 
to get a sense of the lay of land, and even then it could be 
incomplete. Still in other situations it is not only the lack of access 
to but the very lack of existence of federal databases that negatively 
impact our community. One of which, of course, is the lack of federal 
data on our Native language communities. I think that it would be 
valuable for the Committee to consider a future hearing or solicitation 
of comments from tribal leaders on federal databases that should be 
created to fill unmet data needs related to tribal communities.
    It is also important to note that where we have access to federal 
data, we must still contend with data that is frequently out of date or 
irregularly collected when it pertains to Indian Country. Insufficient 
and incomplete data create the same types of challenges as those caused 
by a lack of access to information. By this I mean we as tribal leaders 
(though it also impacts Congress and federal officials) cannot make 
truly informed decisions about matters that directly impact the health 
and welfare of our people. Full, accurate, and regularly updated 
comprehensive data is the standard to which all federal databases with 
information relevant to or on tribal communities should strive. We 
would welcome the opportunity to work with the Committee on ways to 
further the realization of this goal.

    Question 4. Data issues interplay with cultural sovereignty as 
well. For example, I've been working with the Rules and Judiciary 
Committees to look at an issue with the Music Modernization Act that 
would require museums and universities to release recordings of 
culturally-sensitive Tribal stories and ceremonies into the public 
domain. Do you think the federal government is doing enough to ensure 
that Tribal sovereignty over culturally-sensitive data and information 
is respected? If not, what more should we be doing?
    Answer. No; I think that there are significant safeguards that need 
to be put in place across the federal government to better protect our 
culturally-sensitive data and information. As a foundational matter, 
there are federal agencies responsible for database that contain 
culturally-sensitive information yet seemingly have little to no 
contact with tribal nations, such as the U.S. Copyright Office 
discussed in the immediately following paragraph. Such agencies cannot 
be expected to adequately protect our information without those 
relationships. Tribal cultural experts (on a national, regional, and 
local level, as appropriate) need to have direct contact with the 
offices managing these databases to advise on identification of 
culturally-sensitive information, its proper management, and the 
adoption of policies and/or protocols related to this issue. Relatedly, 
it is difficult, if not impossible, to know where these tribal cultural 
experts are needed without a full and accurate list of federal 
databases housing tribal information. I think that the compilation of 
such a list would be a critical starting point for assessing what 
actions may be needed to protect tribal sovereignty.
    I am encouraged to hear of Senator Udall's outreach on the Music 
Modernization Act and hope that the Committee will continue to work 
with its colleagues on the Rules and Judiciary Committees in 
considering amendments to the Act in the 117th Congress. Title II of 
that Act, regarding recordings pre-dating 1972, has the potential to 
increase public access to tribal audio recordings that are culturally-
sensitive, including those involving ceremonies, confidential oral 
histories and songs, and linguistic heritage. To my knowledge, neither 
the U.S. Copyright Office nor the Library of Congress (of which the 
Office is a part) has held a tribal consultation on the implementation 
or implications of this Act, nor on how they can best manage, protect, 
and preserve the materials in their collections with Native 
contributors. As a legislative agency, the Library of Congress and its 
subcomponents share in the federal responsibility to tribal nations in 
their work cataloging, preserving, and celebrating the country's aural, 
visual, and print history.
    Further, it is critical to point out that tribal sovereignty 
interests in culturally-sensitive data are not confined to text on a 
page nor to electronic entries in a database. It also includes the 
objects, activities, and places to which that data refers. For example, 
culturally-sensitive information on the status of a Native language 
community necessarily includes the community itself. Our cultural 
sovereignty is a complete package that cannot be severed into smaller 
parcels for quantification for research and analysis purposes. The 
federal government must keep knowledge of this indivisibility at the 
fore in its efforts to protect and respect culturally-sensitive data 
and information. For example, as the federal government develops and/or 
reforms database housing tribal information, it should advance parallel 
efforts related to the underlying subject.
    Finally, on the issue of cultural sovereignty, I applaud the 
actions that have been undertaken by Committee to strengthen 
protections for our cultural sovereignty. The PROTECT Patrimony 
Resolution and the recent extension of the moratorium on energy leasing 
in the Greater Chaco Region are but two key examples. The Pueblo of 
Acoma, along with our sovereign Pueblo sisters and other tribal 
nations, hopes to see the moratorium made permanent, along with the 
reintroduction and swift passage of the Safeguard Tribal Objects of 
Patrimony (STOP) Act this Congress.

    Question 5. My grandfather Levi Udall once wrote in a judicial 
opinion, ``To deny the right to vote...is to do violence to the 
principals of freedom and equality.'' I wholeheartedly agree. That is 
why I introduced the Native American Voting Rights Act to correct the 
decades-long suppression of the Native vote. It is more important than 
ever that we pass legislation to ensure that the voices of Native 
communities in New Mexico and across Indian Country are counted, not 
discounted. Did you hear of any concerns from Acoma Tribal Members 
about their ability to exercise their voting rights during the 2020 
election process?
    Answer. No. As a matter of fact, our close working relationship 
with the Cibola County Clerk and Native American Liaison afforded our 
tribal members with every opportunity to cast their vote. The Pueblo 
insisted on an aggressive outreach and education effort to keep our 
registered voters informed of all developments relative to registering 
to vote, applying for an absentee ballot, and both the primary and 
general elections. Even during this time of pandemic, the Pueblo had 
one of the highest voter turn-out for both elections. We also increased 
our number of registered voters.

    Question 5a. What can Congress do to ensure that every Native vote 
is counted and not discounted?
    Answer. Having the vote is the cornerstone of democracy; exercising 
it, however, is far from guaranteed, particularly in Pueblo and Indian 
Country. One of the primary ways that Congress can ensure that every 
Native vote has the opportunity to be cast and counted is by enacting 
national standards recognizing tribal identification cards as valid 
forms of voter identification for American Indians and Alaska Natives, 
and by allowing for the use of post office box numbers as a valid form 
of physical address for individuals residing on an Indian reservation. 
Use of tribal identification cards and/or a lack of a traditional 
physical address have been (ab)used by States as a means to deny Native 
voters from registering to vote and from casting mail-in ballots. 
Federal legislation stipulating that these are acceptable forms of 
identification and proof of residence in tribal communities would lead 
to the enfranchisement of thousands of Native voters--voters who are 
being unjustly denied their right to vote today.
    A fundamental aspect of voting is connecting potential voters to 
actual polling sites. In remote and rural areas, which characterize the 
majority of Indian Country, this is a particularly pressing challenge. 
The distance to a local polling site is often directly correlated with 
an indigenous person's ability to vote. States sometimes limit (whether 
deliberately or not) the availability of polling sites within or near 
tribal communities. When the distance becomes too great, the likelihood 
of that individual casting a ballot drops precipitously. Further, where 
the conditions of roads are inadequate, tribal community members may 
face significant physical hurdles in reaching the ballot box, 
particularly if election day is accompanied by any form of inclement 
weather. Congress must ensure that adequate numbers of accessible 
polling sites are available, with sufficient election resources 
provided at each, and that the Bureau of Indian Affairs road 
maintenance accounts are adequately funded on an annual basis to 
facilitate Native voter access to the polls.
    Additionally, Congress could advance the exercise of voting rights 
across the country by declaring the presidential and mid-term elections 
to be federal holidays. For many of our Pueblo members and Americans in 
general, taking time off from work to vote is not an option. 
Recognizing the presidential and mid-term elections as federal holidays 
will enable more people to access the polls without placing their jobs 
in potential jeopardy. This would benefit not only indigenous voters, 
but also voters of all backgrounds across the United States.
    I urge the Committee to consult the comprehensive report on the 
status of Native voting rights in America today that was recently 
compiled by the Native American Rights Fund. The report, titled 
``Obstacles at Every Turn: Barriers to Political Participation Faced by 
Native American Voters'' provides a wealth of information for the 
Committee in understanding the systemic and cultural factors that 
prevent the full exercise of the Native vote and can serve as a jumping 
off point for coming up with concrete ways to remove these barriers in 
future elections. The report is currently available at www.narf.org/
obstacles-at-every-turn/.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                         to Hon. Brian D. Vallo
    Question 1. For the Acoma Pueblo, what sort of future projects 
would most benefit from new, discretionary grant funding from the 
Administration for Native Americans, and how would these projects work 
towards the overall goal of preserving tribal heritage and sovereignty 
and promoting self-governance on tribal lands?
    Answer. Thank you for this important question. Our Pueblo has had 
great success in regards to leveraging Administration for Native 
American (ANA) grant dollars and resources to advance our linguistic 
and cultural programming. These projects are detailed in my written 
testimony, as well as in my testimony for this Committee's oversight 
hearing on the ``45th Anniversary of the Native American Programs Act 
and the Establishment of the Administration for Native Americans'' 
(February 27, 2019). It is essential that the current offerings of the 
ANA continue with full funding and, as you sagely note, that new 
discretionary grant funding be made available.
    At Acoma Pueblo, we are constantly striving to implement new and 
engaging ways to promote our Pueblo sovereignty and cultural and 
linguistic heritage. Among our current and potential projects are:

<bullet>  Acoma Language Dictionary Project--Funded in-part by ANA, 
        this monumental and timely initiative of the Pueblo is nearing 
        completion with additional planning occurring even while tribal 
        elders, linguists, and other key tribal resources are 
        finalizing what will be the first phase of the Dictionary. The 
        planning is focused on curriculum development for students in 
        tribally-controlled schools and for introduction within the 
        local Public School District. There is great anticipation for 
        access to this resource by the tribal community. The tribal 
        mandate to revitalize the Acoma language remains at the 
        forefront of a comprehensive historic and cultural preservation 
        initiative at the Pueblo. We are grateful for the long-standing 
        relationship we have built with ANA, and look forward to 
        maintaining our relationship as the funding and technical 
        resources offered by ANA have directly impacted our success.

    Currently, the ANA's grant offerings are divided into four general 
categories: (i) language preservation and maintenance; (ii) Esther 
Martinez Act immersion schools; (iii) Social and Economic Development 
Strategies; and (iv) environmental regulatory enhancement. These are a 
strong core of grants that support tribal community development and 
Native languages. I think that a natural complement would be a fifth 
category of new discretionary grant funding that is made flexibly 
available to support cultural practices and their preservation. This 
could include project types loosely akin to the language nests and 
immersion schools supported by the Esther Martinez Act that would 
instead focus on the transmission of cultural practices and arts, such 
as Acoma pottery instruction, music, and culinary traditions, for 
example. This type of funding would help us to preserve our Pueblo 
cultural heritage and encourage new generations of Acoma artists in all 
mediums and styles. Fostering the full expression of our Pueblo 
identity would necessarily advance our tribal sovereignty and enable us 
to more deeply exercise our self-governance as Acoma people.

    Question 2. Can you elaborate on how the federal government can 
work with native communities and leaders to be a better partner in the 
tribal consultation process and ensure that federal agencies are being 
as inclusive as possible in ensuring that tribal communities have a 
seat at the table and continue to be included throughout the process?
    Answer. One of the central ways that the consultation process can 
be improved is also a simple one: time. We need time as tribal 
communities and tribal leaders to review the issue(s) and materials 
being presented to us, to formulate our responses (which must take into 
account the time needed to navigate the internal decisionmaking 
structures of tribal nations), and to participate in the consultation 
process itself, which may be either oral or written or both. It is 
disrespectful and self-defeating when federal agencies conduct tribal 
consultation without providing adequate notice or copies of the 
materials on which they intend to consult. I understand that, at times, 
rapid consultation is required. This has been evident during the 
ongoing pandemic when quick decisions on the allocation of relief 
resources must be made. However, rapid consultation is the exception 
rather than the rule. Where extenuating or emergency circumstances do 
not apply, tribal leaders should be consulted for a minimum of thirty 
days and preferably sixty days on federal actions and policies 
implicating tribal interests.
    The other time related recommendation that I believe would advance 
the effectiveness of the consultation process is to conduct this 
engagement with tribal leaders on the front end of federal 
decisionmaking rather than after the fact. True consultation is a 
multiple step process. It entails (i) presenting a clear policy or 
action proposal to tribal leaders; (ii) soliciting our feedback within 
adequate timeframes; (iii) careful federal review of all comments 
received; and (iv) adjusting the policy or action as appropriate based 
on those comments and reporting back on why all decisions were made. It 
is unacceptably common for federal agencies to skip steps (i) to (iii) 
and merely present a finalized policy or action to tribal leaders. This 
is not consultation. This does not fulfill federal obligations to 
tribal nations. This does not respect our responsibility as tribal 
leaders to speak for and protect the interests of our people. It is 
critically important that the federal government complete all steps of 
the tribal consultation process, in the correct order, so that tribal 
leaders are included throughout each decisionmaking process.
    The federal government can also better ensure inclusivity in the 
tribal consultation by meeting tribal leaders where they are. By this I 
mean holding in-person consultations, when safe once again, as close to 
the local level as possible. The twelve regions of the Bureau of Indian 
Affairs and the Indian Health Service, for example, are expansive. The 
Eastern Region alone comprises almost all of the United States east of 
the Mississippi. While not all federal agencies have designated regions 
for managing their communications and service delivery with tribal 
communities, almost all still conduct consultations on a regional 
basis. Where possible, we strongly encourage federal agencies to 
conduct multiple consultations at different geographic locations within 
a region to facilitate the maximum participation of tribal leaders.

    Question 3. Do you have any recommendations on how to better 
improve tribal consultation for the near future, given the context of 
the limitations imposed by COVID-19?
    Answer. I would recommend that federal agencies, to the greatest 
extent possible, coordinate with another on the types of platforms that 
they will use for engaging in tribal consultation. Since the start of 
the pandemic, different federal agencies have used different virtual 
platforms for engaging in consultation. As a result, tribal leaders 
must be ready to go with Zoom for one session, then switch to 
GoToMeeting for another, and then switch to WebEx for yet another. If 
the federal agencies that regularly consult with tribal nations--such 
as the Indian Health Service, Bureau of Indian Affairs, Bureau of 
Indian Education, and now the Centers for Disease Control and 
Prevention--could come to an agreement on the use of even two or three 
consistent virtual platform options would benefit tribal leaders and 
improve participation rates. It is also critical that no matter the 
virtual platform used, each consultation must continue to include a 
landline option for participation as many tribal leaders reside in 
areas where phones are the only available form of reliable connection.
    The abrupt disbanding of in-person consultation processes caused by 
the COVID-19 pandemic has brought with it both positive developments 
and challenges for tribal leaders. On the one hand, we are now able to 
participate in a variety of tribal consultation and listening sessions 
without losing valuable time traveling between consultation sites that 
would have normally occurred. On the other hand, our ability to 
participate in consultations is impaired by IT challenges (or total 
absences), Zoom fatigue, overlapping consultation times, and 
insufficient notice of sessions, which as we described above prevents 
us from being fully prepared or from identifying tribal staff who may 
be able to participate in our stead. Our hope is that we will one day 
return to in-person consultations, which is the most preferred; 
however, until that day, federal agencies must coordinate with one 
another and with tribal leaders on the most effective use of 
telecommunications technology to fulfill this vital federal obligation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Hon. Kirk Francis
    Question 1. Your testimony touches on the issue of federal 
budgetary uncertainty and the burden that it places on Tribes. I have 
to say--I share your concern 100 percent. That's why I worked with 
other members of this Committee to introduce the Indian Programs 
Advance Appropriations Act and the Indian Health Service Advance 
Appropriations Act. But, I recognize that advance appropriations is 
just one step Congress could take to address this problem. You've 
pointed to other solutions we could consider- things like mandatory 
funding and creating a new Tribal budget component. These are important 
ideas that Congress and the Administration should be engages on with 
Tribes. a. Would reforming the federal budget process through more 
meaningful Tribal consultation and input help achieve more budget 
certainty for Tribes?
    Answer. It is USET SPF's strong belief that more meaningful 
consultation, in which Tribal input is gathered and acted upon, is 
critical and always beneficial to the U.S.-Tribal relationship. We 
continue to call for a movement toward a consent-based model, which 
better reflects our sovereign status. More meaningful Tribal 
consultation on the federal budget process offers the opportunity to 
expose its flaws, including those aspects of the process that do not 
adequately reflect our unique relationship with the United States. This 
should lay the groundwork for reforms federal budgeting that truly 
honor Tribal sovereignty and the trust obligation.
    However, it is important to note that as long as federal Indian 
funding remains on the discretionary side of the budget, subject to the 
whims of Congress and the possibility of sequestration, budget 
uncertainty will remain. That is why in the short-term, we are 
supportive of advance appropriations for all federal Indian budget 
lines, and in the longer-term, we are advocating for mandatory funding.

    Question 1a. How could we work to amplify Tribal voices in the 
budget and appropriations processes?
    Answer. The Office of Management and Budget (OMB) should be subject 
to the same Tribal consultation requirements as other federal agencies 
and offices. Further, we recommend a dedicated Indian desk be 
established at the OMB to serve as an advocate for Tribal Nations and 
coordinate within the agency on the development of policies and budgets 
impacting Tribal Nation interests. Currently, examiners assigned to 
specific federal agencies or programs and housed in different 
departments are the only OMB personnel dedicated to Indian Country. We 
believe that the creation of a higher-level, more comprehensive 
position would assist the agency in fulfilling its obligations to 
Tribal Nations and be more representative of the sacred duty to our 
people. The Indian Desk should be responsible for the production of a 
comprehensive, detailed crosscut of federal Indian funding each year to 
show at the most granular level possible in order to measure whether 
funding is actually flowing to Tribal Nations or whether we are merely 
eligible.
    Finally, both IHS and DOI engage in a Tribal budget formulation 
process, which is then supposed to influence the Administration's 
request. Yet, Tribal recommendations are usually significantly scaled 
back in what is submitted for inclusion in the final President's Budget 
Request. While we recognize that the Administration may be unable to 
incorporate all of our recommendations into the official request, 
Congress should, at the very least, be informed and require an annual 
report that compares Tribal Offered (Full Funding) v. Presidential 
Request v. Congressionally Appropriated.

    Question 2. Tribes that enter into ``638'' contracts and compacts 
need to know that the federal government will live up to its side of 
these self-determination and self-governance agreements. The courts 
have affirmed this time and time again. And this Committee has re-
affirmed this policy as part of its work supporting expansion of Tribal 
self-determination. Unfortunately, because of current budget structures 
and processes, ``638'' Tribes rarely receive the certainty they need. 
a. In your experience, how has the lack of budgetary certainty for 
Tribal self-determination programs impacted Indian Country?
    Answer. Delays in funding, due to Continuing Resolutions or 
shutdowns, severely hinder the federal government's execution of its 
trust obligations to Tribal Nations-having destabilizing and disruptive 
effects on the provision of basic government services in Indian 
Country. This includes vital programs and services such as housing, law 
enforcement, road maintenance, social services, and health care--to 
name a few. During the 2018-19 35-day government shutdown, USET SPF 
member Tribal Nations, a majority of which engage in ISDEAA contracting 
and compacting, reported coming dangerously close to reductions in 
programs, services, and staff. According to one member Tribal Nation:

         ''Though our compacts with the federal government state that 
        our Self-Governance funding is to be delivered at the beginning 
        of each FY on October 1st, this has not occurred in years. As a 
        result, we are forced to use our own limited Tribal resources 
        to financially support our programs and services--to attempt to 
        fulfill the federal government's trust obligations while 
        Congress and the Administration attempt to fund the government. 
        Since we have no alternative income or economic development, 
        these resources provide only a limited bridge during CRs and 
        shutdowns.

         This winter's shutdown had destructive and disruptive effects 
        on our ability to provide essential governmental services to 
        our people, as well as our ability to fulfill grant 
        requirements. I had to begin to assess and prioritize our 
        programs and services; to determine how to cut expenses, 
        including reductions to our workforce during the off-season [in 
        our area] where non-seasonal jobs are scarce. Further, despite 
        being awarded new, annual and multiple year grants, for new or 
        continuing programs or services, there was no one available to 
        distribute the funds. Because of the shutdown, we either lost 
        the ability to perform critical grant deliverables because of 
        the uncertainty of lack of funds, or we missed the seasonal 
        window to begin and complete those deliverables.'' b. How do 
        you think these issues might play out as ``638'' is expanded to 
        other departments -like Transportation and Agriculture?

    While the impacts of CRs and shutdowns are not unique to ISDEAA 
contracting and compacting Tribal Nations, the aforementioned issues 
will continue to play out in Indian Country, including funds outside of 
IHS And BIA, without further action to provide certainty to the funding 
that we are owed in perpetuity.

    Question 3. One of the most successful areas for this Committee 
over the past few years has been working with Indian Country to improve 
and expand the Indian Self-Determination and Education Assistance Act. 
I'm particularly proud of my work with Chairman Hoeven in this space. 
Together, we've gotten the PROGRESS for Indian Tribes Act enacted and 
expanded the ISDEAA to the Department of Agriculture in the 2018 Farm 
Bill reauthorization. a. What federal programs do you think Congress 
should prioritize expanding ISDEAA to next?
    Answer. As I noted in my testimony, USET SPF supports the expansion 
of ISDEAA to include all federal agencies and programs for which Tribal 
Nations are eligible. I should also note that HHS has previously 
conducted a feasibility study regarding the expansion of self-
governance into other HHS agencies and programs, reporting to Congress 
in 2003 that it was feasible. A joint Tribal-federal workgroup followed 
this with a 2013 report providing further insight into how this might 
be achieved. Since HHS concluded this would need legislative action, 
Tribal workgroup participants developed a concept paper and draft 
legislation on this expansion. USET SPF remains supportive of these 
efforts and urges the Committee to reexamine these proposals in the 
next Congress.
    We also note that in the absence of full ISDEAA authority across 
all federal departments, agencies, the remain direct services from the 
federal government on which all Tribal Nations rely. The federal 
government must commit to continued funding and attention to these 
functions, as well.

    Question 3a. What would you say are the `` lessons learned'' from 
looking at roll-out of ISDEAA expansion to the Department of 
Transportation and the Department of Agriculture?
    Answer. There is an urgent need to ensure federal officials, along 
with the general public, receive comprehensive education on U.S.-Tribal 
relations and history. This includes education on Tribal sovereignty 
and self-determination, and the federal government's obligation to 
fully support both.

    Question 4. As collection and reliance on data grows in our 
society, especially through federal law and programs, it is more 
important than ever to ensure that Tribal sovereignty over Tribal data 
is respected. And that includes ensuring that Tribes are able to access 
certain federal databases. Whether it's accessing criminal databases to 
address the MMIW crisis, or public health databases to track COVID-19 
activity, Tribes are encountering far too many barriers getting the 
information they need--as governments--to protect their communities. 
How has lack of access to federal databases impacted your Tribes and 
Indian Country as a whole?
    Answer. Public health: Our lack of access to state-collected public 
health data on our people has hindered an already under-resourced 
public health system in Indian Country. In 2010, the permanent 
reauthorization of IHCIA designated Tribal Epidemiology Centers (TECs), 
of which USET operates one, as Public Health Authorities and further 
compelled the Secretary of HHS to share any and all health data with 
Tribal Nations. However, this directive has not been honored, for the 
most part, and Tribal Nations and TECs continue to experience frequent 
challenges in access data on both the federal and state level. USET's 
Tribal Epidemiology Center, for example, is unable to accurately 
conduct disease surveillance or compile complete mortality data for the 
Tribal Nations in our region. In the case of COVID-19, this has further 
impeded ability to monitor the disease, as well as our response. We 
urge Congress to ensure the federal and state governments are required 
to share this data with Tribal Nations and TECs.
    Public safety: Similarly, our lack of access to criminal and other 
public safety information hinders the ability of Tribal Nations to keep 
our communities safe. It is critical that we have parity in access to 
federal crime information. We support the BADGES for Native Communities 
Act as it seeks to provide parity for Tribal Nations in access to 
federal crime information, collection, and tracking. This is an 
important step toward building a stronger public safety foundation in 
Indian Country. The lack of data and coordination presents burdens to 
address and overcome the public safety and justice issues across our 
communities and our federal partner must do more.

    Question 5. Data issues interplay with cultural sovereignty as 
well. For example, I've been working with the Rules and Judiciary 
Committees to look at an issue with the Music Modernization Act that 
would require museums and universities to release recordings of 
culturally-sensitive Tribal stories and ceremonies into the public 
domain. Do you think the federal government is doing enough to ensure 
that Tribal sovereignty over culturally-sensitive data and information 
is respected? If not, what more should we be doing?
    Answer. No, the federal government must fully uphold our 
sovereignty over our own data or data collected from our people, 
including cultural and ceremonial data. Tribal Nations should have full 
ownership over this data and be the final arbiters over how, when, and 
whether it is shared with the public, researchers, or other units of 
government.
    This also includes assisting us in protecting our communities from 
nefarious or harmful research practices. Tribal-designated 
Institutional Review Board Review must be a requirement before any 
research commences within any Tribal community, unless expressly waived 
by Tribal Nation leadership. This review process must include informed-
consent procedures that outline publication permission, as well as 
community protection informed consent and procedures.
    Additionally, all federally-funded researchers must undergo 
mandatory annual training on the critical importance of Tribal 
community protection in research practices and data sovereignty, as 
well the unique and sacred trust relationship between Tribal Nations 
and the U.S. This training must be developed in consultation with 
Tribal Nations.
    We further remind the Committee that at its core, data should be 
understood to be an asset of each Tribal Nation that each respectively 
uses to make informed decisions that impact their citizens and 
community, not as the primary basis for the United States fulfilling 
its trust and treaty obligations.

    Question 6. Native languages contain entire worldviews--they are 
the glue that hold communities together. To that end, Senator Murkowski 
and I introduced the Durbin Feeling Native American Languages Act 
of2020 in October. This bill recognizes the contributions of Cherokee 
linguist and Vietnam veteran Durbin Feeling, who recently passed on, 
and aims to hold the federal government accountable and improve 
targeting of federal resources for Native American languages. a. Do you 
agree that this bill would be an important complement to the Esther 
Martinez Act and other previously enacted laws aimed at supporting 
Native languages?
    Answer. Yes, a critical aspect of the federal trust obligation is 
to assist Tribal Nations in the preservation of our very foundations--
our cultures and traditions. However, it is impossible to track how 
well the government is meeting its obligations without regular review. 
We believe this bill has the potential to assist with that.

    Question 6a. Do you believe that conducting regular, periodic 
surveys of Native language communities to ascertain if their needs are 
being met by federal programs?
    Answer. While, we believe the federal government should be 
conducting periodic assessments of all of its efforts to fulfill the 
trust obligation, it is important to note that Native languages and 
other cultural resources are especially sensitive areas for Tribal 
Nations. In the spirit of Tribal data sovereignty, we urge the bill's 
sponsors to ensure that Tribal Nations are in full control of any 
survey and information released about our languages.

    Question 6b. Do you believe that a regular, periodic survey of 
Native language communities like that proposed in the Durbin Feeling 
bill help ensure federal programs are meeting the needs of a more 
diverse set of Native language communities, including communities with 
lower numbers of remaining speakers?
    Answer. USET SPF's diverse membership includes Tribal Nations 
working to retain, restore, and reawaken our languages, after centuries 
of attempts at termination and assimilation. It is our hope that this 
type of a survey-again, with the appropriate protections--would ensure 
more funding reaches our membership and provides the necessary support 
to ensure current and future generations are able to speak the words of 
our ancestors.

    Question 7. Senator Murkowski and I wrote the Durbin Feeling Native 
American Languages Act of 2020 to ensure that Tribes will be in the 
driver's seat when it comes to collecting information about Native 
languages. Do you agree that this is an important feature of any survey 
of Native languages?
    Answer. As stated previously, USET SPF feels it is an important 
feature of any data collected from Tribal Nations and our people. We 
would like to further explore the strengthened protections we have 
previously outlined with the Committee during the 117th Congress.

    Question 8. My grandfather Levi Udall once wrote in a judicial 
opinion, ``To deny the right to vote. . .is to do violence to the 
principals of freedom and equality.'' I wholeheartedly agree. That is 
why I introduced the Native American Voting Rights Act to correct the 
decades-long suppression of the Native vote. It is more important than 
ever that we pass legislation to ensure that the voices of Native 
communities in New Mexico and across Indian Country are counted, not 
discounted. a. Has USET SPF heard any concerns from Tribes about the 
ability of their members to exercise their voting rights during the 
2020 U.S. election process?
    Answer. While we remain horrified and dismayed by voter suppression 
efforts during the 2020 election cycle, we have not been informed of 
any efforts specifically targeting citizens of our member Tribal 
Nations.

    Question 8a. What more can Congress do to ensure that every Native 
vote is counted and not discounted?
    Answer. USET SPF joins our relatives across Indian Country in 
supporting S. 739, the Native American Voting Rights Act, legislation 
that would ensure Native people have equal access to the electoral 
process.
                                 ______
                                 

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

     Written Questions Submitted by Hon. Catherine Cortez Masto to 
                             John Echohawk
    Question 1. Looking to the future of fighting voter suppression, in 
regards to Native American populations, can you provide recommendations 
on how federal legislators can best collaborate with tribal leadership 
on continuing the progress of the Native American Voting Rights Act and 
addressing the issue of Native American voter suppression in our own 
states?

    Question 2. Can you elaborate on how the federal government can 
work with native communities and leaders to be a better partner in the 
tribal consultation process and ensure that federal agencies are being 
as inclusive as possible in ensuring that tribal communities have a 
seat at the table and continue to be included throughout the process?

    Question 3. Do you have any recommendations on how to better 
improve tribal consultation for the near future, given the context of 
the limitations imposed by COVID-19?
                                 ______
                                 
           Written Questions Submitted by Hon. Tom Udall to 
                             John Echohawk
    Question 1. As collection and reliance on data grows in our 
society, especially through federal law and programs, it is more 
important than ever to ensure that Tribal sovereignty over Tribal data 
is respected. And that includes ensuring that Tribes are able to access 
certain federal databases. Whether it's accessing criminal databases to 
address the MMIW crisis, or public health databases to track COVID-19 
activity, Tribes are encountering far too many barriers getting the 
information they need--as governments--to protect their communities. 
Has NARF observed any negative impacts on Tribes from lack of access to 
federal databases?
    Question 2. Data issues interplay with cultural sovereignty as 
well. For example, I've been working with the Rules and Judiciary 
Committees to look at an issue with the Music Modernization Act that 
would require museums and universities to release recordings of 
culturally-sensitive Tribal stories and ceremonies into the public 
domain. Do you think the federal government is doing enough to ensure 
that Tribal sovereignty over culturally-sensitive data and information 
is respected? If not, what more should we be doing?

                                  [all>]
</pre></body></html>
